<html>
<title> - ECO-TERRORISM SPECIFICALLY EXAMINING STOP HUNTINGDON ANIMAL CRUELTY (``SHAC'')</title>
<body><pre>[Senate Hearing 109-1005]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1005
 
  ECO-TERRORISM SPECIFICALLY EXAMINING STOP HUNTINGDON ANIMAL CRUELTY 
                               (``SHAC'') 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

39-521 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









































               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 26, 2005
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont, 
  prepared statement.............................................    30
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Thune, Hon. John, U.S. Senator from the State of South Dakota....    10

                               WITNESSES

Bernard, Richard P., executive vice president and general 
  counsel, New York Stock Exchange...............................    20
    Prepared statement...........................................    39
Bibi, Mark L., general counsel, Life Sciences Research, Inc. and 
  Huntingdon Life Sciences, Inc..................................    15
    Prepared statement...........................................    37
Boruchin, Skip, NASDAQ market maker, Legacy Trading Company......    18
    Prepared statement...........................................    38
Lewis, John E., Deputy Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigation......................     5
    Prepared statement...........................................    30
Sabin, Barry M., Chief, Counterterrorism Section, Criminal 
  Division, U.S. Department of Justice...........................     8
    Prepared statement...........................................    33
Vlasak, Jerry, M.D., press officer, North American Animal 
  Liberation Press Office........................................    20
    Prepared statement...........................................    41

                          ADDITIONAL MATERIAL

Article:
    ``The Animal Zealotry That Destroyed Our Lab,'' by Mark S. 
      Blumberg, Washington Post..................................    50
    Doris Day Animal League......................................    53
Charts:
    HLS CEO Attacked and Beaten with a Baseball Bat at His Home..    62
    SHAC Attacked Homes of HLS Scientists........................    63
    SHAC Leaflets Chiron Executive's Neighborhood................    64
    SHAC Directs Members to Contact NYSE.........................    65
    Jerry Vlasak is an Actor in Multiple Animal Rights Terrorists 
      Groups.....................................................    66
    SHAC Attacked Home of Skip Boruchin in Oklahoma..............    67
    SHAC Attacked Office of Skip Boruchin in Oklahoma............    68
    SHAC Leaflets HLS Executive's Neighborhood with Slanderous 
      Material...................................................    69
    SHAC Orders Direct Action on HLS.............................    70
    DOJ Resource Guide on the Domestic Terrorist Threat of SHAC..    71
    Business Card Illustrates the Collusion of Multiple Animal 
      Rights Groups..............................................    72
Letters:
    Kerr, Jeffrey S., general counsel and director of corporate 
      affairs, People for the Ethical Treatment of Animals 
      Foundation (PETA).......................................... 54-58
    Lenon, Jordana, National Association for Biomedical Research.    59
    Pacelle, Wayne, president and CEO, The Humane Society of the 
      United States..............................................    60
    Society for Animal Protective Legislation....................    61
Statement, Bistrian, Bruce R., M.D., Ph.D., president, Federation 
  of American Societies for Experimental Biology (FASEB).........    48


                  ECO-TERRORISM SPECIFICALLY EXAMINING
               STOP HUNTINGDON ANIMAL CRUELTY (``SHAC'')

                              ----------                              


                      WEDNESDAY, OCTOBER 26, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Thune, and Lautenberg.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The committee will come to order. We have a 
longstanding habit of starting on time, whether other members 
are here or not.
    Today, the Committee on Environment and Public Works will 
discuss the committee's investigation into eco-terrorism. This 
hearing is the second hearing we have had on this subject. We 
will focus on Stop Huntingdon Animal Cruelty, ``SHAC,'' a 
radical animal rights organization that relies on crimes of 
violence and a campaign of fear to convey their message of 
animal liberation. SHAC evolved with the purpose of ruining a 
contract research organization called Huntingdon Life Sciences. 
We will refer to that as HLS, also known as Life Science 
Research, a New Jersey-based company that conducts EPA and FDA 
mandated testing on animals.
    This testing may some day provide a cure for cancer, AIDS, 
blindness and the possibilities are endless, as we, the 
Congress, have determined that this testing is necessary to 
ensure the safety of our consumers.
    Our first two witnesses, John Lewis, Deputy Assistant 
Director of the Counterterrorism Division of the FBI, and Barry 
Sabin, Section Chief of the Counterterrorism Division of the 
Department of Justice are here to explain SHAC's revolutionary 
tactics used to pressure people through tertiary or third party 
targeting to stop any and all business with HLS. SHAC targets 
all HLS service providers and clients under the theory that 
without them, HLS cannot operate.
    SHAC is able to effectively bully companies by using 
extremely dangerous and frightening tactics, including the use 
of bombs, arson, violence against people and property, 
intimidation, and harassment. We have a chart that depicts the 
HLS CEO who was attacked with a baseball bat by SHAC. That is 
on my side of the two charts, you can see his head is bleeding 
profusely. He was near death at that time.
    [The reference document follows on page 62.]
    SHAC calls these tactics direct actions, and its level of 
violence and propensity for harm has led the FBI to include 
SHAC, along with the Animal Liberation Front and the Earth 
Liberation Front, as the most serious domestic terrorist threat 
today, having committed over 1,200 acts of terror and over $200 
million in damages.
    There is a need for tighter, yet concise legislation to 
curb this criminal activity that, up to date, has been 
impervious to law enforcement authorities. Such legislation 
will close the gaps in the criminal code that have allowed 
SHAC, working with multiple other animal rights groups, the 
freedom to terrorize people.
    Mark Bibi, general counsel for HLS, will inform us about 
not only the years of terror that HLS executives, scientists, 
and other employees and their family members have endured as 
SHAC's primary target, but also the costs associated with 
operating a research entity because of SHAC. Notice the chart 
that illustrates multiple scientists' homes that were attacked, 
coupled with the loss of research, loss of scientists and 
security costs of the interference with HLS' ability to compete 
in the financial markets.
    [The reference document follows on page 63.]
    Just last month, HLS was to be listed on the New York Stock 
Exchange. The Exchange refused to go through with the scheduled 
listing because of threats from SHAC. Here is a chart 
illustrating the SHAC Web site threatening the New York Stock 
Exchange.
    [The reference document follows on page 65.]
    When this happened on September 7, I sent a letter to the 
New York Stock Exchange cautioning them on such an important 
decision and expressing my concerns about setting a dangerous 
precedent. As I said in my letter, it seems to me unimaginable 
that this country's worldwide symbol of the integrity of the 
capital markets, the New York Stock Exchange, would capitulate 
to threats or even the mere threat of threats from a single 
issue extremist group.
    Appeasing these groups only validates the effectiveness of 
their tactics and inspires them to replicate this model of 
activism in some other venue. What then will happen when the 
activists move to the timber industry or the defense industry 
or some other controversial industry? Today we will seek 
information from the New York Stock Exchange about this 
decision.
    One of my constituents, Skip Boruchin, from Oklahoma, 
endured several years of SHAC's terror, along with his family 
and employees. He is with us today to tell his story. Skip's 
home and office--notice these charts--were attacked by SHAC and 
ALF.
    [The reference documents follow on pages 67 and 68.]
    Finally, the committee will hear from animal rights 
activist, Dr. Jerry Vlasak. Dr. Vlasak is highly controversial, 
since he has gone on record advocating the end of biomedical 
research using animals by any means possible, including 
assassination--that's murder--of scientists. In fact, Dr. 
Vlasak has been banned from the United Kingdom for such 
volatile statements.
    We need to understand and assess the dangers associated 
with the research culture that is under attack. If researchers 
do not receive protection and the opportunities to fairly 
compete, will they leave the United States for places like 
China and India? These are questions we must seek the answers 
to in order to determine the best response to this troubling 
issue.
    Consequently, I am introducing legislation today that will 
assist law enforcement in their plight to combat the 
criminally-based SHAC campaign that targets innocent and 
necessary actors in an industry that promotes innovation and 
discovery.
    [The prepared statement of Senator Inhofe follows:]
        Statement of Senator James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    Today the Committee on Environment and Public Works will discuss 
the Committee's investigation into Eco-terrorism. This hearing, the 
second installment in a series of hearings, will focus on Stop 
Huntingdon Animal Cruelty (``SHAC''), a radical animal rights 
organization that relies on crimes of violence and a campaign of fear 
to convey their message of animal liberation. SHAC evolved with the 
purpose of ruining a contract research organization called Huntingdon 
Life Sciences (``HLS'') also known as Life Science Research, a New 
Jersey-based company that conducts EPA and FDA mandated testing on 
animals. This testing may, some day, provide us the cure for cancer, 
AIDS, blindness the possibilities are endless and we, as the Congress, 
have determined that this testing is necessary to ensure the safety of 
our consumers.
    Our first two witnesses John Lewis, Deputy Assistant Director of 
the Counterterrorism Division for the Federal Bureau of Investigations 
and Barry Sabin, Section Chief of the Counterterrorism Division of the 
Department of Justice are here to explain SHAC's revolutionary tactics 
used to pressure people through ``tertiary'' or ``third party'' 
targeting to stop any and all business with HLS. SHAC targets all HLS 
service providers and clients under the theory that without them, HLS 
cannot operate. SHAC is able to effectively bully companies by using 
extremely dangerous and frightening tactics including the use of bombs, 
arson, violence against people and property, intimidation, and 
harassment. We have a chart that depicts HLS' CEO who was attacked with 
baseball bat by SHAC.
    SHAC calls these tactics ``direct actions'' and its level of 
violence and propensity for harm has led the FBI to include SHAC along 
with the Animal Liberation Front and the Earth Liberation Front as the 
most serious domestic terrorist threat today, having committed over 
1,200 acts of terror and over $200 million in damages. There is a need 
for tighter yet concise legislation to curb this criminal activity 
that, up to date, has been impervious to law enforcement authorities. 
Such legislation will close the gaps in the criminal code that have 
allowed SHAC, working with multiple other animal rights groups, the 
freedom to terrorize people.
    Mark Bibi, General Counsel of HLS, will inform us about not only 
the years of terror that HLS executives, scientists, and other 
employees and their family members have endured as SHAC's primary 
target, but also the costs associated with operating a research entity 
because of SHAC. Notice the chart that illustrates multiple scientists' 
homes that were attacked. Coupled with the loss of research, loss of 
scientists, and security costs is the interference with HLS' ability to 
compete in the financial markets. Just last month HLS was to be listed 
on the New York Stock Exchange only to find out at the 11th hour that 
the Exchange refused to go through with the scheduled listing because 
of threats from SHAC. Here is a chart illustrating the SHAC website 
threatening the NYSE. When this happened on September 7, I sent a 
letter to the New York Stock Exchange cautioning them on such an 
important decision and expressing my concerns about setting a dangerous 
precedent. As I said in my letter, it seems to me unimaginable that 
this country's worldwide symbol of the integrity of the capital 
markets, the NYSE, would capitulate to threats, or even the mere threat 
of threats, from a single issue extremist group. Appeasing these groups 
only validates the effectiveness of their tactics and inspires them to 
replicate this model of activism in some other venue. What then happens 
when activists move to the timber, defense, or some other controversial 
industry? Today we will seek information from the New York Stock 
Exchange about this decision.
    One of my constituents, Stephen (``Skip'') Boruchin from Oklahoma, 
endured several years of SHAC's terror along with his family and 
employees and he is with us today to tell his story. Skip's home and 
office--notice these charts--were attacked by SHAC and ALF. Finally, 
the committee will hear from animal rights activist, Dr. Jerry Vlasak. 
Dr. Vlasak is highly controversial since he has gone on record 
advocating the end of biomedical research using animals by any means 
possible including the assassination of scientists. In fact, Dr. Vlasak 
has been banned from the United Kingdom for such volatile statements.
    We need to understand and assess the dangers associated with a 
research culture that is under attack. If researchers do not receive 
protection and the opportunities to fairly compete will they leave the 
United States for places like India and China? These are questions we 
must seek the answers to in order to determine the best response to 
this troubling issue. Consequently, I am introducing legislation today 
that will assist law enforcement in their plight to combat the 
criminally based SHAC campaign which targets innocent and necessary 
actors in an industry that promotes innovation and discovery.

    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman.
    I don't know whether I need my sign before I make my 
speech.
    Senator Inhofe. I don't have mine up. You don't need yours.
    Senator Lautenberg. Anyway, Mr. Chairman, thank you very 
much for holding this hearing today. The subject is very 
important, and I think it has to be apparent that there is 
nothing that we can say that justifies criminality. Among the 
subjects I know that we review in this committee on a regular 
basis are subjects of terror and what if any involvement that 
we are aware of that takes place. We want to step up and defend 
people's rights to dissent, but also prosecute those, recommend 
prosecution of those who would break the law.
    I served in the Army during World War II, and our rights as 
Americans are precious to me, including the right of free 
speech and political dissent. One person's rights, where 
another person's safety begins, is often a delicate question. 
Nobody has the right to jeopardize the safety of anyone else. 
Anyone who believes that they have that right because their 
ideological beliefs are so strong is sorely mistaken.
    I support the right, as I said, to free political speech 
that is not based on threats or harassment. Protests and 
demonstrations are legal and legitimate means of advocating for 
change. But I condemn violence and I support the prosecution of 
criminal behavior.
    I believe that laboratory tests involving animals can be 
necessary and important for the advancement of science and 
medicine and the protection of public health. I would hope that 
that wasn't the case. If it is determined that that is the only 
way to establish the safety and efficacy of a product that is 
going to be used on humans, unfortunately, so be it.
    When such testing is necessary, it must be conducted under 
strict standards and subject to regular inspection and 
oversight. Even though I believe such testing can be necessary, 
I understand that some people don't share my views. These 
people have a right to engage in legitimate public debate on 
the topic. They have a constitutional right to speak their 
minds and even stage protests.
    They do not have a right to engage in violent, criminal or 
threatening activities, as some members of an organization with 
the acronym SHAC, Stop Huntington Animal Cruelty have done. I 
deplore these actions for several reasons. Not only do these 
illegal actions victimize innocent citizens in my State, they 
are also used to tar with a broad brush anyone who supports the 
cause of animal rights or protecting the environment. I support 
animal rights. I am very careful about that, and have been an 
advocate for safe transportation of animals and care of 
animals. I stand by that.
    But while the actions of SHAC may fall within the statutory 
definition of terrorism, the fact is, our Nation faces much 
greater threats of terrorism from other sources, which does not 
mean that we should let this pass by unnoticed or not acted 
upon. SHAC's illegal acts should be prosecuted to the fullest 
extent of the law.
    They should not divert our attention from great, great 
threats to lives, health and safety of the U.S. citizens, 
including in New Jersey, such as the need for greatly increased 
chemical security. We have people at risk within the nearby 
vicinity of chemical plants that could conceivably kill 
millions if they are attacked with serious weaponry.
    So Mr. Chairman, I thank you for the opportunity to present 
my views on this issue.
    Senator Inhofe. Thank you, Senator Lautenberg. That was an 
excellent statement. I hope it is not inappropriate for me to 
say that I totally agree with your statement. I think it is the 
best statement I have ever heard you make in the 19 years we 
have been here. Thank you very much.
    [Laughter.]
    Senator Lautenberg. I thought I made one in my 18th year--
--
    Senator Inhofe. My memory isn't that long.
    [Laughter.]
    Senator Inhofe. Thank you, Senator Lautenberg.
    So that the witnesses will be aware, while we are short of 
members here, the members all have staff that is here. Members 
will be coming in and out. We have things that are going on on 
the floor. I even have an amendment myself on the floor right 
now.
    We will go ahead with opening statements. Mr. Lewis, we 
will start with you. Just try to stay within 5 minutes or so. 
Your entire statement will be made part of the record. Take 
what time you need to make, because your testimony--and yours, 
Mr. Sabin--are very important.
    Mr. Lewis.

    STATEMENT OF JOHN E. LEWIS, DEPUTY ASSISTANT DIRECTOR, 
   COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Lewis. Thank you very much.
    Good afternoon, Mr. Chairman, Senator Lautenberg. I am 
pleased to return before this committee and continue 
discussions regarding the threat posed by animal rights 
extremists.
    I am here today to speak to you about how members of the 
animal rights extremist movement advance their cause by using 
so-called direct action against individuals, as well as 
companies. I see disturbing signs of success in what they are 
doing, and legitimate business enterprises are suffering.
    I will also touch on the limitations of existing statutes 
and the need to amend legislation if there is agreement that 
more needs to be done to address this problem.
    When I was last here in May, I spoke of direct action 
taking many forms, to include harassment and intimidation of an 
escalating nature, vandalism also of an escalating nature, and 
more severe criminal actions, such as the use of improvised 
incendiary and explosive devices.
    There are two types of targets today in the cross-hairs of 
animal rights extremists who are on the receiving end of the 
so-called direct action. The first includes individuals and 
companies which directly interact with animals, such as is the 
case with our medical research industry. The second type is 
individuals and companies which do not directly interact with 
animals, but who have business ties with companies which do.
    The direct actions carried out by those associated with the 
animal extremist movement are very definitely executed to 
harass, intimidate, destroy property, inflict economic harm, 
with the ultimate aim of terminating normal business 
operations. Within the animal rights extremist movement, we are 
currently seeing a significant amount of direct action activity 
that we are unable to effectively address given the Federal 
statutes we have to work with.
    This activity involves the targeting of secondary or 
tertiary companies which have business or financial 
relationships with another principal target. This activity 
typically takes the form of and begins with harassment of 
employees through telephonic contact, e-mail or in person. This 
kind of harassment escalates if the desired effect is not 
reached and can quickly involve into intimidation and 
legitimate concerns for physical safety.
    In other cases, we have seen vandalism used to make a 
point, followed by contact with business principals to make 
sure they understand there is more to follow if the animal 
rights extremists' demands are not met.
    The point of this activity, very successfully executed in 
recent cases, I might add, is to force business owners to sever 
ties with the principal target, an act that disrupts business 
and one that can inflict serious economic damage. The Stop 
Huntingdon Animal Cruelty campaign, best known as SHAC, is best 
known for this tactic. SHAC, as you are aware, has since its 
inception, targeted Huntingdon Life Sciences, both in the 
United Kingdom and here in the United States. Their overriding 
goal is to put HLS out of business by whatever means necessary, 
to include violent means.
    Although they have not been successful, there is no doubt 
that HLS has suffered significantly from a financial point. 
SHAC has made it their business to target companies that are 
affiliated with HLS, from pharmaceutical companies to builders 
to investors. It is not enough to say that SHAC targets 
companies, that is not personal enough. SHAC targets people, 
individuals in these companies, men and women who hold 
management positions and on occasion their family members. SHAC 
has used a variety of tactics to intimidate these affiliated 
companies, employees, family members, to include bombings, 
death threats, vandalism, office invasions, home visits with 
and without vandalism, phone blockades and denial of service 
attacks on their computer systems and the like.
    I can report to you today that this strategy has been quite 
effective. SHAC has forced well over 100 companies to sever 
ties with HLS, including Aetna Insurance, CitiBank, Deloitte 
and Touche, Johnson and Johnson, Merck and others. Their 
current target list includes GlaxoSmithKline, Roche, Novartis, 
UPS, as well as multiple financial institutional investors.
    Let me give you a couple of examples here, and I think we 
have gone over some of these before. In August 2003, two 
explosive devices were detonated at the Chiron Corporation out 
in California. A month later, an improvised explosive device 
exploded at the headquarters of the Shaklee Corporation, also 
in California. The second device that detonated at Chiron was 
timed to go off later than the first, and in my view, an 
apparent strike at first responders.
    At Shaklee, that device was constructed with nails, to 
significantly increase its lethality to anyone in the area at 
time of detonation. That claim of responsibility that followed 
indicated that all customers and their families are considered 
legitimate targets, no more will all the killing be done by the 
oppressors, now the oppressed will strike back.
    In another more recent example, just last month an 
incendiary device was left on the front porch of a senior 
executive at GlaxoSmithKline in England. GlaxoSmithKline is one 
of SHAC's main targets. It was Animal Liberation Front, in this 
particular case, that claimed responsibility. In their message, 
they wrote: ``This is just the beginning. We have identified 
and tracked down many of your senior executives and also your 
junior staff. Drop HLS or you will face the consequences.''
    Last month, Huntingdon Life Sciences entered into a 
business relationship with the New York firm Carr Securities. 
Carr is a market maker and intended to market HLS stock. On the 
very day following its first series of transactions, SHAC 
vandalized the Manhasset Bay Yacht Club. The Yacht Club was 
vandalized because certain Carr executives are believed to be 
associated with that club. Three days after this incident, Carr 
Securities terminated its business relationship with HLS, and 
did so with a public announcement that is still on the Internet 
today.
    An investigation is being conducted by us at several 
institutional investment firms around the country today who 
either now own or have had HLS stock. Several of them have been 
targeted; some of this is currently going on as we speak and 
others not yet. In some cases, these firms have sold their 
shares in order to bring an end to the harassment and 
intimidation. SHAC's Web site features a statement attributed 
to a CEO of one such company: ``Please be advised that as of 
today, Cortina Asset Management does not own any shares of 
Huntingdon Life Sciences Research. We have sold all of our 
shares in LSRI today. This will confirm that we have no 
intention of dealing with HLS stock at any time in the 
future.''
    Existing statutes make it relatively easy for the FBI to 
pursue direct actions that include arsons and bombing. It is a 
different story with respect to the harassment via telephone, 
e-mail, office and home visits, vandalism to property, 
intimidation and the like. The existing Animal Enterprise 
Terrorism statute, set forth at 18 U.S.C. 43, does provide a 
framework for prosecuting the individuals involved in animal 
rights extremism. However, in practice, this statute does not 
cover many of the activities SHAC routinely engages in on its 
mission to shut down HLS.
    Investigating and preventing animal rights extremism is one 
of our highest domestic terrorism priorities, as you know. We 
are committed to working with our partners to disrupt and 
dismantle these movements, to protect our fellow citizens and 
to bring to justice those who commit crime and terrorism in the 
name of animal rights.
    We are also committed to working with the Congress to 
develop statutes and amend those statutes that will allow us to 
accomplish this mission.
    Chairman Inhofe, Senator Lautenberg, I appreciate the 
opportunity to come back here and would be pleased to take any 
questions when we are finished here.
    Senator Inhofe. Thank you, Mr. Lewis.
    Mr. Sabin.

          STATEMENT OF BARRY M. SABIN, CHIEF, COUNTER-
   TERRORISM SECTION, CRIMINAL DIVISION, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Sabin. Mr. Chairman, Senator Lautenberg, thank you for 
providing me the opportunity to testify before you concerning 
the Department of Justice's efforts to investigate and 
prosecute entities and individuals who commit criminal acts in 
the name of animal rights.
    In order to ensure that the Department has all the 
necessary investigatory tools, legal authorities, and 
appropriate penalties, the Department supports amending title 
18, United States Code, section 43 to include, among other 
things, economic disruption to animal enterprises and threats 
of death and serious bodily injury to associated persons. The 
proposed modifications provide a clear and constitutional 
framework consistent with the first amendment for timely, 
effectively and justly addressing prohibited criminal conduct 
that will ensure that victims' rights are respected and 
preserved.
    As this committee well knows, animal rights extremists have 
not hesitated to use violence to further their social and 
political goals. In those cases where individuals have used 
improvised incendiary or explosive devices, Federal prosecutors 
are well equipped to prosecute and punish such individuals 
using the tools provided in title 18, United States Code, 
section 844.
    Domestic violence by animal rights extremists is not 
limited, however, to the use of arson and the use of 
explosives. As Mr. Lewis has described in his testimony, Stop 
Huntingdon Animal Cruelty and other animal rights extremist 
organizations and entities are engaging in a campaign of 
criminal conduct which is calculated to aggressively intimidate 
and harass those who have been identified as targets, including 
Huntingdon Life Sciences.
    The personal and economic consequences of this campaign 
have been and will continue to be significant. In the past, 
this kind of criminal conduct was prosecuted as a violation of 
the Hobbs Act, codified in section 1951 of title 18 of the 
United States Code. In Scheidler v. National Organization for 
Women, however, the United States Supreme Court held that in 
order to commit the extortion that is the gravamen of the Hobbs 
Act violation, a defendant must actually obtain property, that 
is, he or she must take a tangible thing of value from his or 
her victim.
    On the other hand, the Animal Enterprise Protection Act, 
codified at section 43 of title 18, is still an important tool 
for prosecutors seeking to combat animal rights extremists. The 
Department has used section 43 to charge SHAC and individual 
defendants in Federal district court in New Jersey.
    While section 43 is an important tool for prosecutors, SHAC 
and other animal rights extremists have recognized limits and 
ambiguities in the statute and have tailored their campaign to 
exploit them. Accordingly, the Department supports the draft 
bill to amend section 43 in order to address several gaps in 
the law that keep prosecutors from using it in the most 
effective manner possible.
    First, the statute's definition of the type of animal 
enterprise that it protects is not broad enough to include some 
of the entities that are now targeted by SHAC and other animal 
rights extremists. These include pet stores and even animal 
shelters. Second, the statute's use of the phrase ``physical 
disruption'' to describe the conduct it proscribes 
unnecessarily suggests that it covers a narrow scope of 
conduct.
    Third, the proposal would include this type of criminal 
conduct as a predicate for seeking electronic surveillance 
authority. Fourth, in its current form, the statute fails to 
address clearly the consequences of a campaign of vandalism and 
harassment directed against individuals as opposed to the 
animal enterprise itself. The proposal would remedy this 
ambiguity by clearly stating that committing the proscribed 
conduct against an individual, including an employee of an 
animal enterprise, or of an entity with a relationship with an 
animal enterprise, is equally illegal.
    Finally, the proposal provides a range of penalties, 
including imprisonment, fines and restitution that are tailored 
to reflect the nature and severity of the criminal conduct. It 
is important to underscore that this Congress and the Justice 
Department have taken significant steps to assist and protect 
victims of crime. The Justice for All Act passed with 
overwhelming bipartisan support 1 year ago and is codified in 
section 3771 of title 18. The attorney guidelines on victim and 
witness assistance, as revised in May of this year, recognize 
the rights of crime victims and the importance of reasonable 
protection for victims from defendants or those persons acting 
in concert with or at the behest of suspected offenders.
    The proposed legislation seeks to build upon this 
foundation. The criminal conduct of animal rights extremists is 
directed against individuals and companies in order to 
intentionally place these victims in reasonable fear of death 
or serious bodily injury. These victims often suffer mentally, 
physically, and monetarily when extremists threaten them, 
damage their property and affect their livelihood.
    This is not first amendment protected speech, but rather 
criminal conduct that is within the traditional realm of 
statutes prohibiting threats, violence or injury to innocent 
victims. In seeking to meet the challenge of these changing 
forms of criminal conduct by animal rights extremists, the 
Department is acutely aware of the importance of protecting the 
first amendment rights of those who protest any cause they 
believe right, including the testing and other use of animals.
    Let me be clear: The Department does not seek to prosecute 
those who enter the arena of debate seeking to persuade their 
government or private businesses and individuals of the merit 
of their viewpoints. This proposal would not, indeed could not, 
criminalize such protected activity. We seek to prosecute 
criminal conduct, including conduct that places a person in 
reasonable fear of death or serious bodily injury.
    The first amendment is not a license for the use or 
threatened use of violence or for the commission of other 
crimes. Those who cross the line from free speech to criminal 
conduct should be prosecuted and if convicted, they should be 
punished appropriately. As it has done in other contexts, the 
Congress must give prosecutors the tools to do so fairly and 
effectively.
    Mr. Chairman, members of the committee, thank you for your 
leadership on this issue and again for inviting us here and 
providing us the opportunity to discuss how the statutes are 
being used consistent with our constitutional values to fight 
violent extremism. Together, we will continue our efforts to 
secure justice and defeat those who would harm this country.
    Thank you.
    Senator Inhofe. Thank you, Mr. Sabin.
    Senator Thune, Senator Lautenberg and I have already given 
opening statements. If you would like to make an opening 
statement, you are recognized to do so.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I don't have a long 
statement, but I appreciate your willingness to examine this 
issue and am obviously anxious to hear the perspective that the 
Department of Justice and others have about the law enforcement 
implications of this issue, and also to hear the testimony of 
the panelists with respect to some of the threats that they 
face.
    I hope that in shining a light on some of these terrorist 
activities we will be able to form some basis or foundation 
that hopefully will lead us to a course of action. I am not 
sure what that is at this point, Mr. Chairman, but I think it 
is important to have this discussion, to invite these witnesses 
to testify about what they are experiencing out there and to 
look at what we can do to help address and keep people in this 
country safe.
    Thank you.
    Senator Inhofe. Thank you, Senator Thune. That comment 
leads me into the first question for you, Mr. Lewis. You heard 
Mr. Sabin talk about the recommended specific changes by title. 
Have you had a chance to review the recommendations of Mr. 
Sabin? What is your response to that?
    Mr. Lewis. Yes, I have. I endorse what the Department of 
Justice has put forth. It will allow us to reach through our 
investigative activity those actions as directed at both 
property and persons of secondary or tertiary companies that 
happen to do business with companies like HLS, something we 
have great difficulty finding now through the statutes that we 
have.
    Senator Inhofe. I think in your written testimony you said 
that there are some 100 companies that have been identified 
that have been subjected to this type of abuse. Is that 
accurate?
    Mr. Lewis. Not that have just been identified, sir, but 
that have quit doing business with HLS at some cost to that 
company, I might add.
    Senator Inhofe. Why do you think the companies are so quick 
to back out? It is a terrorist organization. Why do they so 
easily respond to the demands?
    Mr. Lewis. Sir, in my view, these companies give in to SHAC 
at least in part, if not in whole, because they believe that 
their business, their customers, their employees, their 
employees' family members can all become targets of what has 
become fairly well known from SHAC, their harassment, 
intimidation, violence in the form of vandalism at their homes, 
at their business or worse. There are far too many examples of 
this for these businesses not to be aware of it.
    I am certain these companies are well aware of this radical 
movement of which SHAC is clearly a part. I am certain that 
they are well aware that there are many arsons throughout the 
country attributed to this movement. I am sure they are aware, 
for instance, that there has been use of improvised explosive 
devices, that you can go on these Web sites that the animal 
extremists, people who are associated with that movement, the 
Web sites that they go to, you can find recipes for making 
these types of devices.
    The fact of the matter is, when a management official is 
faced with this kind of thing, when he is associated with a 
company that is doing business with HLS and is all of a sudden 
contacted by SHAC, all these things I have described I know are 
going through his head. He knows what their successes are. I am 
sure he knows what, to some extent, how successful law 
enforcement has been, and we haven't been that successful at 
all.
    I believe these companies make a bottom-line decision at 
the end of the day: Do I want to go through all this and have 
my employees and family members and customers put up with this, 
or do I want to take a step back at some small expense to me, 
and I will let HLS pick up somewhere else.
    Senator Inhofe. Mr. Lewis, you testified before this 
committee last April or May when we had a similar hearing with 
ALF and ELF, the Animal Liberation Front and the Environmental 
Liberation Front. Will you share with us how you see SHAC in 
relationship to ALF and ELF?
    Mr. Lewis. Within the animal extremist movement there are 
three principal organizations that concern me on a daily basis. 
SHAC is one of those. There are three entities that concern me 
most on a daily basis in the work I do associated with animal 
rights extremism and environmental extremism: ELF, ALF and 
SHAC. From time to time there are others that come up on the 
scope. Some of these are associated with the three that I have 
just mentioned. But these names cross my desk on a daily basis.
    Senator Inhofe. Mr. Sabin, in your testimony you said to 
terrorize people effectively, the SHAC Web site lists 20 
terrorist tactics to use on people and companies. How do they 
use the Web sites or the Internet in getting their message out?
    Mr. Sabin. They use that kind of communication device which 
is not just for the local cell, but for nationwide and even 
international audience, so that they can take it from a local 
to a national level. It is low cost; it has controlled 
readership; it enables them to conduct training or 
communications rather than traveling from one location to 
another, which would inhibit a law enforcement response, a 
disruptive response because of their traveling or other kinds 
of interaction. It provides a secure method for them to 
communicate on a cheap and effective large scope basis.
    It is something that is not just promoting its views, but 
organizing a direct action campaign. So they link it to 
specific terror tactics that are articulated on the Web site 
and set forth in the indictment in New Jersey and SHAC--that 
criminal case--to explain the manner in which they use that 
technology.
    Senator Inhofe. Thank you. This afternoon I am going to 
introduce legislation that we put together. I want you guys to 
realize that we want to untie your hands. What I would like to 
ask of you is if you would take the legislation that we are 
going to be introducing--it will be assigned to the Judiciary 
Committee--and tell us if there are any imperfections on that. 
Because even though it will not be assigned to this committee, 
we can certainly have an impact and plan to be there as 
witnesses when the hearing is held. Can you do that?
    Mr. Sabin. We would be happy to do so.
    Senator Inhofe. That's good.
    Senator Lautenberg.
    Senator Lautenberg. I am a little confused about whether or 
not the conventional law enforcement codes don't protect people 
from the kinds of activities that you have described: 
Harassment, intimidation, boycotts that are other than just a 
demonstration--physical boycotts. Isn't there protection for 
citizens within the code, the law enforcement codes as we know 
it?
    Mr. Sabin. There are some protections. But we could do 
better in terms of making it a more nuanced response to the 
campaign that SHAC and animal rights extremists are presently 
undertaking. So you could, for example, charge as we have 
charged in the case in your State, Senator, interstate stalking 
as a criminal violation.
    But section 43, which is addressed specifically to the 
animal enterprise terrorist activities, as presently drafted, 
only addresses--physical disruption, is the term. So the nature 
of the conduct, attacks both by SHAC and other groups inspired 
by their activities, goes not only against physical disruption, 
but the language that we would suggest would be economic 
damage, economic disruption, and threats against the person.
    So you are not only going against the property of 
individuals and animal enterprise, or those associated with the 
animal enterprise, but the threats, force or violence that is 
inflicted upon an innocent victim who somehow is associated 
with that animal enterprise in legitimate business conduct.
    Senator Lautenberg. It sounds like a fine line to me. I 
want to do what we can to protect people's rights to operate 
safely under the law or to go about their normal living. I have 
no sympathy for those who would use felonious criminal methods 
to bring a goal or an objective across. What we ought to do is, 
if it is illegal, if the activity that the company or the 
individual is doing is illegal, well, then we ought to fix that 
also.
    But as long as it is a legal operation, then I don't see 
any reason why we would tolerate anything that smacks again of 
intimidation, harassment, talk about harming children, harming 
your family, destroy a business where people go that has 
nothing to do with the operation of the company in mind. It is 
just totally unacceptable.
    My son lives in Colorado, and he lives in an area called 
Vale, CO where they burned down a lodge there, a beautiful 
place that the company had put up, according to the law. It was 
just destructive, just destructive to go ahead and burn it 
down. It wasn't just the economic cost, it was the threat 
against people who are conducting their lives, making their 
living by working in that company, not doing a thing wrong. It 
was outrageous, and we had the FBI, they just unfortunately it 
was always a suspicion that it was an environmental group, but 
it was never proven. So therefore we can't assess the blame.
    But these things--let me ask you something, Mr. Sabin. If a 
boycott was threatened and the company's stock dropped on the 
Exchange or in the marketplace, would that be included in a 
recommended statute, loss of economic value? And again, if the 
activity is wrong, it's wrong. There is no sympathy coming from 
me.
    Mr. Sabin. It would depend upon the specific facts and 
circumstances of the matter. The ability to engage in the 
marketplace of ideas as affecting the market of the financial 
district is something that could be within protected first 
amendment activity. Phoning your Senator's office, writing a 
letter, depending upon what the letter said, depending upon the 
nature of the activity, could fall within the parameters of 
legitimate first amendment conduct.
    But when that becomes as articulated in our concern over a 
course of conduct, where it goes beyond mere speech to actual 
conduct in connection with not an isolated event, but a number 
of events, that is something that would fall outside the first 
amendment. So we can get into specific facts and circumstances 
relating to an event, or a number of events, and we would look 
at that in the scope of our activities as to whether it is 
appropriate to open a criminal investigation and then to 
actually charge and prosecute that.
    Senator Lautenberg. Mr. Chairman, I am not sure that I see 
the fine line. But if there is an open question, I think we 
ought to close it. Thank you both.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Thune.
    Senator Thune. Mr. Chairman, it sounds like there is pretty 
broad support for addressing this in the form of your proposed 
legislation. I just have a couple of questions, and forgive me 
if this is ground you covered in your testimony.
    What is the trend line with respect to these sorts of 
incidents of domestic terrorism, eco-terrorism in the past 
several years? Is it spiking up? Is it gradual, flat? Has it 
always been the case? And then the follow-up question to that 
would be, in addition to any legislative authorities that you 
might need that are not available to you today, in the form of 
enabling legislation, is funding an issue when it comes to 
enforcement and making sure that you are appropriately cracking 
down on people who commit these types of acts?
    Mr. Lewis. Sir, funding is not an issue. We can take that 
off the table. It is simply not an issue.
    With respect to the trend, there is no doubt that over the 
last several years, by virtue of the successes that continue to 
pile up in the absence of strong statutes that enable me to 
pull the rug out from under their feet, so to speak, or the 
Bureau, I should say, not just me, the trend is that they are 
becoming very effective at disrupting legitimate business. If 
we are talking about SHAC, the disruption is of course aimed at 
Huntingdon Life Sciences. As the weeks and months go by, more 
and more companies are forced to submit to their will and quit 
doing business with HLS.
    We also see continuing use of the Internet to advocate what 
we consider to be increasingly violent activity. We have seen 
rhetoric on there of late, as has been mentioned here, that 
includes assassinations and murders as a way of bringing about 
change if they can't do it otherwise.
    In short, the trend is, I believe this is on the rise. 
There is an abundance of this activity which I am looking at 
right now. I don't feel, with the tools that I have to use 
today, that we can be as effective as we otherwise might. I 
believe that this piece of legislation that we have all looked 
at--and I know that you all have worked with is an excellent 
piece that will give us what we need.
    Mr. Sabin. I would agree that there is an increasing spike 
in the activity. I would also agree that the tools as discussed 
with respect to the loss of the Hobbs Act, because of the 
Supreme Court decision, causes this need for a gap to be 
filled, specifically in section 43 of title 18. We have a 
budget with respect to resources, a budget request that we 
would be happy to work with Congress in order to address this 
in the coming weeks and months.
    I never say no to resources, as long as we can articulate 
and justify the appropriate ability to use them effectively in 
our terrorism program and work with the FBI to achieve what we 
need to achieve to address the mission.
    Senator Thune. The principal issue then is not funding; it 
is statutory authority, and the baseline authority that you 
have today enables you to deal from a law enforcement 
standpoint with physical violence, like under any circumstance 
you would have, but the authorities that you are seeking have 
to do more with the hazing, these types of intimidation 
activities and sort of economic terrorism, so to speak. It 
looks like that is the principal mode of attack for people who 
are behind these types of acts.
    Mr. Sabin. Yes, the definition of what would constitute 
economic damage or economic disruption based upon the monetary 
amount. One of the things that we would underscore is the 
ability to use it as a wire tap predicate, as an investigatory 
tool.
    So going back to the Chairman's original question as to the 
use of the Internet, the ability to use that to intercept 
communications that are being conducted through that mechanism 
or other communication mechanisms, is often an important means 
of getting competent evidence that we can use, either to 
prosecute an individual or prosecute a group.
    With the additional penalties in a proposed statute, you 
combine those investigatory tools, the overall understanding of 
what we are trying to do in our terrorism program, which is 
prevent rather than respond to an incident. Then you have the 
leverage of increased penalties to get cooperators that can 
then provide the modus operandi, the manner and means by which 
an organization or movement is conducting its criminal 
activities.
    Senator Thune. It looks, Mr. Chairman, like we need some 
deterrence to this sort of activity and clearly there is, it 
looks like to me, a basis for action on the part of the Senate 
to deal with this. So I appreciate your effort to do that, and 
I thank the gentlemen for their testimony.
    Senator Inhofe. Senator Thune, you might be interested to 
know that the United Kingdom is really ahead of us here. They 
have had this problem in a more severe way for a longer period 
of time than we have. And in fact, it is my understanding that 
the company that we are talking about, HLS, actually was a U.K. 
company and they moved here because of all the threats and the 
violence that was taking place over there.
    What I have, and I think this is a good place to do it, put 
into the record at this point the bill that was passed in the 
United Kingdom dealing with this. We are taking a lot of things 
from this bill, since they had this problem before we did. That 
is influencing the type of legislation that we are introducing. 
So without objection, I will have this as part of the record at 
this point.
    [The referenced document was not received at time of 
print.]
    Senator Inhofe. We thank both of you for coming today and 
we will, in fact, invite you, either yourselves or your staff 
to stay and hear the next panel because we are going to be 
dealing with this issue, and I think it would be good for you 
to hear them. You are dismissed.
    We would ask the next panel to come forward. The next panel 
is Mark Bibi, general counsel for the Huntingdon Life Sciences, 
from New Jersey; Skip Boruchin, of the Legacy Trading Company 
in my State of Oklahoma, Edmond, OK; Richard P. Bernard, 
executive vice president and general counsel of the New York 
Stock Exchange; and Dr. Jerry Vlasak, Stop Huntingdon Animal 
Cruelty, or SHAC, from Santa Monica, CA.
    What we are going to do is start our testimony with Mr. 
Bibi and we will work across the table here. As I instructed 
the first panel, your entire statement will be made a part of 
the record. We invite you to try to limit your remarks to about 
5 minutes. Mr. Bibi, you are recognized.

  STATEMENT OF MARK L. BIBI, GENERAL COUNSEL OF LIFE SCIENCES 
       RESEARCH, INC. AND HUNTINGDON LIFE SCIENCES, INC.

    Mr. Bibi. Thank, you, sir. Good afternoon, Chairman Inhofe 
and members of the committee. My name is Mark Bibi. I am 
general counsel of Life Sciences Research and our operating 
subsidiary, Huntingdon Life Sciences.
    Thank you for this opportunity to appear before you today 
to discuss the dangers posed by SHAC, as you have just heard 
identified by the FBI as one of the Nation's leading domestic 
terrorism organizations. It is a serious matter and deserves a 
serious response.
    LSR is a publicly-traded company headquartered near 
Princeton, NJ. An important part of our work is to conduct 
Government-required animal testing on drugs and chemicals to 
identify risks to humans, animals and the environment. Because 
of these efforts to make sure products are safe, HLS and those 
who do business with us have been relentlessly terrorized by 
SHAC.
    As I awoke on a chilly November morning and looked out my 
window, the fears that had been building ever since I was first 
targeted by SHAC a few months earlier were realized. My car's 
front windshield had been smashed with a large boulder. The car 
was covered with animal rights graffiti. Warning messages were 
spray painted all over my house: ``Quit HLS, puppy killer, 
close HLS.'' I immediately knew that I had been the victim of a 
SHAC attack. The impact of this violence and the implicit 
threat of future violence is a terrifying, life-changing event.
    A few months earlier SHAC had identified me as a target in 
their newsletter and on their Web site. They posted my name, 
home address and phone number, with the exhortation, ``Go get 
'em.'' Almost immediately, the harassment and intimidation had 
begun: Nasty phone calls in the middle of the night, 
threatening letters and e-mails, protesters at my home, 
screaming through bullhorns that I am a murderer. And now, the 
sanctity and safety of my home had been violated.
    Other SHAC targets have suffered beatings, acid attacks, 
car and letter bombings.
    SHAC uses these terror tactics not only against HLS and its 
employees, but also against third parties to force them to 
sever their business relationships with Huntingdon. Time and 
again, in dozens of cases, both customers and HLS' providers, 
from accounting firms to banks, to lawn gardeners and even 
remarkably our security firm, have been forced by fear to 
capitulate to SHAC's demand that they cease working with us, 
deciding it is safer for them and their employees to give in 
rather than to suffer the personal harassment and intimidation.
    SHAC is now attacking the integrity and independence of the 
U.S. stock market system. LSR stock trades on the OTCBB market. 
SHAC targets and harasses any market maker that dares to trade 
in LSR stock, and more than 40 market makers have caved in to 
SHAC's intimidation.
    Senator Inhofe. Let me interrupt for just a moment, for the 
purpose of my colleagues here, when you use LSR and HLS, we are 
talking about the same organization?
    Mr. Bibi. LSR, sir, is the parent holding company of HLS.
    Senator Inhofe. Thank you very much.
    Mr. Bibi. Only one of those market makers, Legacy Trading, 
from whom you will be hearing shortly, currently consistently 
makes a market in our stock. SHAC has a current campaign 
against LSR's institutional investors, taking advantage of 
public SEC filings to identify those investors. SHAC has 
intimidated most of them into selling their LSR stock, causing 
significant dislocation in the market.
    But perhaps the most shameful apparent capitulation to 
date, and that which I believe poses the greatest threat to the 
U.S. economy, is that of the New York Stock Exchange. In the 
summer of this year, we entered into listing discussions with 
the Exchange. We met all the financial requirements to list our 
stock on the Exchange, and we told them right up front about 
the SHAC campaign. The New York Stock Exchange dismissed the 
potential risks, pointing out that since 9/11 they had been a 
target of the most dangerous terrorists in the world, assuring 
us they would not be scared off by SHAC.
    We spent a number of weeks completing all the necessary 
paperwork and interviews, keeping in regular contact with NYSE 
staff throughout. On August 22, the Stock Exchange told us that 
we had been authorized for listing. We issued a press release 
announcing that approval, and reporting that we expected to 
begin trading on September 7. That press release was approved 
in advance by the New York Stock Exchange and the president of 
the Exchange, Catherine Kinney, even included a quote in that 
release welcoming us.
    On the morning of September 7, our senior management team 
went to the New York Stock Exchange's Wall Street headquarters 
for the original listing celebration. But only minutes before 
we were to go down to the trading floor to watch the first 
trade in LSR stock, Ms. Kinney told us that they would not be 
listing LSR stock that day and that our listing had been 
postponed.
    One of my LSR colleagues and I spent the next hour or so 
meeting with senior NYSE officials, including Ms. Kinney and 
Margaret Tutwiler, their press secretary. They asked us and we 
spoke only about the animal rights campaign against the 
company. It was patently clear to me that the only reason the 
Stock Exchange had postponed our listing was because of 
concerns about the SHAC campaign.
    All Americans took pride when the New York Stock Exchange 
reopened for business only 4 business days after the 9/11 
terrorist attacks. Yet apparently purely on the basis of a 
perceived threat from SHAC, the NYSE postponed plans to list 
our stock. A handful of animal extremists had succeeded where 
Osama bin Laden had failed.
    We have received no information from the New York Stock 
Exchange since September 7. They have never raised with us any 
question of our eligibility or suitability to list. They have 
not asked us for any further information. We seem to have been 
indefinitely postponed, with no indication as to when, if ever, 
the NYSE will tell us anything.
    The risks posed by SHAC should not be underestimated. As 
Chairman Inhofe has stated in his public statements, SHAC is 
but the tip of the iceberg. They are the test case for a whole 
new brand of activism through personal intimidation. Other 
activist campaigns are no doubt waiting in the wings to see how 
SHAC is dealt with. Imagine the impact if SHAC tactics were 
used by those opposed to any myriad of other industries.
    SHAC's greatest impact has come in targeting third parties 
doing business with or providing services to HLS. I urge the 
Congress to adopt more effective laws that can be used to 
control this type of third party targeting, and I am gratified 
to have heard this afternoon that that type of legislation is 
in fact being introduced.
    We cannot allow the domestic terrorism practiced, fostered 
and encouraged by SHAC to flourish in our own back yard. Thank 
you for your time. I would be happy to answer any questions you 
may have.
    Senator Inhofe. Thank you, Mr. Bibi.
    Mr. Boruchin.

       STATEMENT OF SKIP BORUCHIN, LEGACY TRADING COMPANY

    Mr. Boruchin. Good afternoon, Chairman Inhofe, Senator 
Lautenberg, Senator Thune. Thank you for this opportunity to 
testify before this committee today.For the last few years, I 
have been living a somewhat captive existence, held hostage by 
members of Stop Huntingdon Animal Cruelty, SHAC, an animal 
rights activist/terrorist group. As you have heard, SHAC is an 
underground group that uses fear and terror to force their 
viewpoints upon others.
    I am a NASDAQ market maker, lawfully working in the State 
of Oklahoma, making a market in the common stock of many 
companies. I have been targeted by SHAC because of my job. I am 
a market maker, that is, I am continually prepared to buy or 
sell shares of these companies, thereby providing a liquid 
ready market for those who desire to buy or shell shares. 
Huntingdon Life Sciences, also known as Life Sciences Research, 
Inc., ticker symbol LSRI, is one of the companies I make a 
market in.
    Roughly 3\1/2\ years ago, my employer, Legacy Trading, 
became the target, the proverbial bullseye for SHAC. This 
bullseye on my life is solely due to the fact that I have been 
and remain the only market maker in Life Sciences Research. 
SHAC launched an all-out terrorist attack on too many other 
market makers, Merrill Lynch, Charles Schwab, Goldman Sachs, to 
name a few. They were terrorized by SHAC's ``direct action 
campaigns'' specifically to influence and control the market in 
Life Sciences Research.
    I am the only holdout of dozens of market makers who all 
capitulated to SHAC's demands and dropped, that is, ceased 
trading LSRI stock. Viewing me as the sole provider of a market 
for LSRI, SHAC launched a campaign of sheer terror on me and my 
family, destroying our privacy, causing dramatic changes in our 
daily lives now, and I'm sorry to say, forever.
    SHAC's attempt to force me to stop trading the LSRI stock 
included local, national and international harassment, 
intimidation, and terror. Personal information of my family, 
names, addresses, social security numbers, home phone numbers, 
as well as those of 19 of my neighbors were published on the 
SHAC Web site. ``Run him out of town, tell him to drop the 
stock, or we will publish credit card, medical and other 
personal information about you.'' Daily, thousands of obscene 
and threatening phone calls to home and office at all hours, 
day or night. Outright slander, calling me a child pornographer 
in the media and all over the Internet.
    When these threats and actions did not work, SHAC moved to 
far more dangerous and insidious tactics. Describing me as the 
``dreaded Legacy,'' SHAC brought their crimes of terror to my 
home, office, and family. One day I awoke to find that SHAC had 
been in my yard. They spray-painted large messages like puppy 
killer, drop HLS, all over the entire house. They wrote, ``Skip 
is a murder, 9 million dead,'' on my garage door.
    In addition to defacing my home, they cut all the lines of 
communication. The next day, the SHAC Web site bragged that 
this was the beginning, ``More direct action will come if you 
don't drop LSRI.''
    On four occasions, Legacy's office has been terrorized. The 
criminals have shattered the front office windows, incendiary 
devices thrown in, red paint over everything in the office 
including computers, furniture, floors and walls. Office 
equipment was sabotaged, and spray-painted messages were left 
for me to know that I suffered this felony for exercising my 
right to make a living: ``Drop HLS, quit making a market.''
    If tactics like this were not enough, SHAC also targeted my 
relatives and even my 90-year-old mother. In December 2004, 
SHAC posted my mother's name, her address at her assisted 
living residence and her phone number on the Internet with 
specific instructions to have her put pressure on me as I spoke 
and visited with her frequently. I quote the SHAC Web site, 
``Send her sex toys, have an undertaker arrive to pick up her 
dead body and call her collect in the middle of the night, 
pretend to be a friend of Skip's, ask for his cell number in 
order to place it on the Internet.''
    Although my mom passed away in January, the magazine 
subscriptions sent, the billing statements and the credit 
problems remain. The SHAC torment of my family did not stop 
with my mother. My family has been targeted and terrorized in 
neighboring States with SHAC's action tactics.
    I have chosen only to tell you just a few of the harrowing, 
traumatic events I have gone through and go through at the 
hands of SHAC. It is difficult to describe the emotions that 
accompany actions such as I have described. I feel violated. I 
am vulnerable, angry, and gravely frightened for my family. 
This is precisely SHAC's goal, to leverage your love of your 
family, your value of safety, your pursuit of life, removing my 
freedoms to advance their beliefs, because I go to work each 
day as a market maker. It is apparent for most people facing 
this dilemma, the decision is simple: drop LSRI, drop 
Huntingdon Life Sciences, stop making a market.
    Well, I did not, and I do not intend to. I fundamentally 
believe in the rights that we receive as Americans: The right 
to liberty and privacy; the right to participate in government 
and even the right to disagree with government; the right to 
free speech. The healthy right to free speech should not hold 
others captive nor force them to do anything.
    SHAC inexcusably promotes the lives of animals over the 
lives of the humans they target. I do not confuse SHAC's tactic 
with a noble cause nor should anyone else. Huntingdon is a 
company that performs a role in the world of developing 
technology. But more importantly, they perform a lawful 
function, as do I.
    Respectfully, I ask what would you do if your mother, 
brother, sister, niece, nephew just went to work and were 
fanatically terrorized? I urge this committee to simply 
evaluate the consequences of such unchecked activism. Please do 
not allow people to force their causes, ideas or opinions upon 
others using fear, threats or criminal acts.
    Thank you very much for the opportunity to be heard today. 
I am available to answer any questions.
    Senator Inhofe. Thank you so much. I appreciate your 
courage very much.
    Mr. Bernard.

 STATEMENT OF RICHARD P. BERNARD, EXECUTIVE VICE PRESIDENT AND 
            GENERAL COUNSEL, NEW YORK STOCK EXCHANGE

    Mr. Bernard. Good afternoon, Mr. Chairman, Senator 
Lautenberg, Senator Thune. My name is Richard Bernard, I am the 
general counsel of the New York Stock Exchange, and the 
Exchange appreciates the opportunity to facilitate this 
hearing. I will try to do that by briefly explaining our 
listing process and touching on the postponement of LSR's 
listing.
    As Mr. Bibi suggested, the Exchange has various blackline 
material going to the financial well-being and the corporate 
governance of a company that seeks to list on the New York 
Stock Exchange. It also, however, has broad discretion to take 
into account any number of other factors that the Exchange in 
its judgment may think is relevant to whether a company's stock 
trades on the New York Stock Exchange.
    The other thing I want to mention is that this process, 
with this notable exception, is always done in confidence. The 
typical case is that kinds of considerations that go into the 
listing process are discussed long in advance of any formal 
announcement, and then the matter is announced. This allows us 
to avoid creating any negative impact on a company, 
shareholders on its stock, based upon decisions we may make 
about whether we wish to list the company or not. They may have 
nothing to do with the underlying value of the company or its 
business or its business model.
    In the case of this company, LSR, which is how we know it 
because we would be listing the holding company, we got our 
cart before our horse. We announced the decision before in fact 
we had what we needed to make that decision. It resulted in, as 
far as I know, an unprecedented event of Mr. Bibi and others 
coming to the Exchange that Wednesday after Labor Day and 
learning only then that we were deferring this decision. The 
Exchange regrets that. I will apologize here to Mr. Bibi for 
that. I sincerely wish it hadn't happened.
    We continue to consider the application of this company. As 
you might imagine, because of the publicity that our decision 
and events around it have attracted, it is obviously rather 
difficult to do this process in a confidential way. But we will 
continue to seek to do that. Thank you very much.
    Senator Inhofe. Thank you, Mr. Bernard.
    Dr. Vlasak.

STATEMENT OF JERRY VLASAK, M.D., PRESS OFFICER, NORTH AMERICAN 
                 ANIMAL LIBERATION PRESS OFFICE

    Dr. Vlasak. Senator, before I begin, I would respectfully 
request to be able to put a couple of posters on the board. I 
noticed a couple of others have been put up throughout the 
meeting.
    Senator Inhofe. That's perfectly acceptable.
    Senator Lautenberg. Mr. Chairman, why do we have to permit 
this?
    Senator Inhofe. Oh, yes, I think Senator Lautenberg has 
brought up a point. We have a committee rule that unless the 
testimony or pictures or charts are submitted in advance, they 
will not be used in the hearing. So your request is denied.
    Dr. Vlasak. My request is denied?
    Senator Inhofe. That's correct. Right. Prior to any 
witnesses coming in, we send a notice out saying what the rules 
of the committee are, and there are certain things that must be 
submitted in advance. Charts are among those things. You are 
recognized, Dr. Vlasak.
    Dr. Vlasak. I think it only provides an insinuation that we 
are not hearing both sides of the story. I assume and I have 
been told by Ms. English that I was invited here to answer 
questions and try to provide some balance to this hearing. I'm 
disappointed that I'm not able to use those visual aids.
    I received a fax on Friday afternoon which unfortunately 
was too late for me to be able to provide the posters in 
advance to this committee and have them approved.
    Senator Inhofe. Well, first of all, I don't agree with 
that, because if you knew Friday afternoon that you wanted to 
do this, we would have had a chance to review those. We are 
going to treat you like everybody else.
    Dr. Vlasak. Good afternoon. My name is Dr. Jerry Vlasak. I 
am a practicing trauma surgeon, but more importantly, for 
today's purpose, I am here as a press officer with the North 
American Animal Liberation Press Office.
    The actions of activists who care enough about animals to 
speak out in no uncertain times and at times to risk their own 
lives and freedom have a message that is most urgent and one 
that deserves to be heard and understood. Often, acts of animal 
liberation either go unreported in the media or are 
uncritically vilified as violent or terrorist, with no 
attention paid to the suffering the industries and individuals 
gratuitously inflict upon animals. The Press Office seeks to 
clarify the motivation and philosophy behind these actions 
taken in defense of our animal brothers and sisters.
    Huntingdon Life Sciences kills 500 animals a day. That is 
over 180,000 animals per year. They carry out experiments which 
involve poisoning and torturing animals to death with household 
products, pesticides, drugs, herbicides, food colorings, 
sweeteners, oven cleaner and cosmetics. HLS is a contract 
testing company that operates facilities in the United Kingdom 
and New Jersey. They have been infiltrated and exposed in 
undercover investigations five times in recent years by 
journalists and animal rights campaigners. Each time, horrific 
evidence of animal abuse and staff incompetence has been 
uncovered, including workers punching beagle puppies in the 
face, simulating sex with animals in their care, dissecting 
primates while they are still alive and falsifying experiments 
to get their client's product on the market.
    Two brief examples of the horrific and unscientific testing 
done at Huntingdon Life Sciences include the following. An 
estimated 12,800 animals died in the research of the sugar 
substitute, Splenda, including pregnant rabbits, beagle dogs 
and primates. Splenda was forced down the throats of beagles 
who were then killed by exsanguination, having their throats 
slit.
    A 2003 experiment on a refrigeration component that has 
long been banned from production forced 7-month-old beagle 
puppies to inhale the pollutant, eventually leading to their 
deaths. On a daily basis, animals used in vivisection at places 
like HLS are drowned, suffocated, starved to death, they have 
their limbs severed and their organs crushed; they are burned, 
exposed to radiation, used in experimental surgeries; they are 
shocked, raised in isolation, exposed to weapons of mass 
destruction and rendered blind or paralyzed.
    They are given heart attacks, ulcers, paralysis, and 
seizures. They are forced to inhale tobacco smoke, drink 
alcohol and ingest various drugs, such as heroin and cocaine. 
And in my very own town of Los Angeles, primates are now being 
forced to ingest the drug ecstasy.
    The campaign to stop Huntingdon animal cruelty was set up 
at the end of 1999 by a group of activists who had successfully 
closed down numerous other facilities that bred cats and dogs 
for experimentation. It's important to realize that SHAC is not 
just one group or a hierarchical entity, but it is an ideology, 
a paradigm shift, if you will, in the way the public views the 
atrocities perpetrated by companies such as HLS. Tens of 
thousands of people worldwide have joined to protest the evil 
perpetrated upon innocent animals in HLS labs.
    While some groups like SHAC USA are legal, incorporated 
non-profit organizations, other groups are just loosely knit, 
caring individuals of like mind. It's ridiculous to think that 
SHAC is one group with a top-down organization that controls 
all activities in the 18 countries worldwide where it is 
currently active.
    In summary, there are thousands of physicians like myself 
worldwide who realize there is no need to experiment on animals 
in order to help humans, the vast majority of whom get sick and 
die because of already known preventable lifestyle variables 
such as diet, smoking, drugs, and environmental toxins. In a 
country where 45 million people have no access to medical care, 
in a world where 20,000 children are dying from lack of clean 
water every single week, there is no reason to waste hundreds 
of millions of dollars doing unscientific drug testing and 
experimenting on animals.
    Huntingdon is the poster child of an abhorrent, unnecessary 
and wasteful industry that not only murders millions of 
innocent, suffering animals, but dooms countless humans to 
their own unnecessary suffering, because scarce health care 
dollars are wasted on useless animal research and testing. The 
struggle for animal liberation needs to be seen in an 
historical context, like the Boston Tea Party ignited a 
revolution, like Nelson Mandela and his fight against 
apartheid, like the suffragettes and John Brown, all of these 
noble and historical figures fought the governmental powers of 
oppression, slavery and exploitation.
    Today, groups like SHAC USA and other SHAC activists around 
the world fight legally to end these needless atrocities and 
the ALF and other groups fight underground for the same 
purpose. This struggle will go down in history as one of the 
most moral ever fought.
    Regarding the proposed legislation that I heard Mr. Sabin 
and others mention, I remind you of the quote by John F. 
Kennedy, ``Those who make peaceful revolution impossible will 
make violent revolution inevitable.''
    Thank you.
    Senator Inhofe. I will start with you, Mr. Bibi. Something 
that was going through my mind during your testimony is, it 
would appear to me that we could be subjecting ourselves, if 
this type of behavior would continue, with losing some of our 
top scientists, researchers and others to countries, as I said 
in my opening statement, like China, India, and other places. 
Do you have any thought about that?
    Mr. Bibi. I would tend to agree with you, sir. Scientists 
deserve the right to conduct their vital research in a safe and 
secure environment. If proper protections are not afforded by 
our country to permit that, I have little doubt that 
unfortunately they would look elsewhere.
    Recent developments in the United Kingdom are perhaps 
instructive in this regard. It's been reported in the press 
that as the animal rights terrorism issue grew significantly 
worse over the past couple of years, the CEOs of a number of 
leading British pharmaceutical companies confirmed directly to 
Prime Minister Blair that they would not spend one additional 
dollar on research facilities in the United Kingdom until the 
matter was brought under control.
    In fact, I read in the newspaper just this week that a 
number of African countries, including South Africa, have made 
an affirmative effort to reach out to the scientific community 
in the United Kingdom and the United States to say, come work 
here, it is going to be safer for you to do so.
    Senator Inhofe. That's interesting.
    Mr. Boruchin, we hear about this type of perverted 
terrorism, and you never think about it being close to home, at 
least I don't, until I read your testimony before this hearing. 
I think you and Mr. Bibi have both been personally subjected to 
something that's just--it's hard to believe that that could 
happen in Oklahoma.
    I would ask you, you mentioned free speech. Having been the 
target of this for the last 3 years, do you think that SHAC's 
form of activism is protected by free speech? You may not have 
the background to respond to that, but I'm sure you have talked 
to others and gotten opinions. What do you think?
    Mr. Boruchin. My personal opinion would be that by removing 
my freedoms to advance their beliefs, I don't believe that is 
protected by free speech.
    Senator Inhofe. The idea of the listing, and Mr. Bernard, 
of course, we want to hear from you on this, but do you think 
that it is a costly thing either to you, or you might answer 
the same thing, Mr. Bibi, on not achieving the listing that you 
had anticipated you would receive?
    Mr. Bibi. Obviously, the postponement of our listing has 
had a very negative effect on our company and our stockholders. 
The confidential review process that Mr. Bernard alluded to was 
in fact conducted in connection with our application early in 
the process. That would have been the time, obviously, for any 
issues or concerns to have been raised. In fact it was not, and 
we were affirmatively told in writing that we had cleared the 
eligibility review process and were invited to submit the 
formal application.
    The fact that our listing was postponed only after it had 
been made public has been nothing short of disastrous, quite 
frankly. Our stock price, for example, had traded consistently 
in the $12 to $14 range in the weeks leading up to the 
announcement of the listing, closing at $14.05 on the day 
before that announcement. On the day of the listing, the stock 
traded up as high as $18.30 a share, before closing at $16 a 
share. On the day before the listing was postponed, we closed 
at $17.50 a share. Then on the day when we announced the 
postponement, we fell $2.50 to $15 a share, or roughly $30 
million or so, immediately out of our shareholders' investment 
portfolios as a direct result of that.
    For a couple of weeks after the announcement, 3 or 4 weeks 
after the announcement, the stock held roughly in the $14 
range, and I can only speculate that the investment community 
believed that the New York Stock Exchange simply had to list 
us. It was inconceivable that that would not be the case. 
Regrettably, it appears that the investment community is now 
losing faith in the likelihood of the Stock Exchange doing the 
right thing, as our stock has now traded down to about $10 a 
share.
    So roughly $100 million of market value has been lost, as 
well. If we are ultimately denied the listing, we would lose 
all the benefits that the New York Stock Exchange offers, in 
terms of increased liquidity, better stock platform.
    Senator Inhofe. I would assume, Mr. Boruchin, that you have 
suffered similar types of economic loss.
    Mr. Boruchin. I'm a little confused. As I understood, the 
company met all the requirements of the New York Stock 
Exchange. I know there are two other companies that do similar 
testing in their business, and they are on the Exchange.
    For me personally, it probably would have resulted in a 
loss of income, because as a market maker, I am not on the New 
York Stock Exchange. However, the other side is, the target on 
my back probably would have been eliminated. I question why 
they are not on the Exchange, and am concerned, as you are, 
whether the terrorists, SHAC, had any influence on that.
    Senator Inhofe. We have a witness we will be asking those 
questions of.
    Before we do that, I would like to ask my two colleagues if 
there is any objection to taking a little bit longer on each 
one. We do have a vote at 4:15, and if we could just have a 
little bit longer than the 5 minutes, if that's all right.
    Mr. Bernard, you had used the term postponing and deferring 
the listing. Is it your anticipation that the process is still 
ongoing, or would you like to respond to any of the comments 
that have been made concerning the Exchange?
    Mr. Bernard. The process is ongoing, and I otherwise have 
no comment.
    Senator Inhofe. OK. Dr. Vlasak, do your fellow animal 
rights activists understand that animal testing is required by 
law and therefore, the people who are performing this testing 
are merely following the law? Do they understand that, and do 
you understand that?
    Dr. Vlasak. I understand that they are merely following the 
law, and the law in this case is wrong, just like the law that 
allowed slavery was wrong at one time.
    Senator Inhofe. Well, you mentioned slavery, you also 
mentioned slavery in several of the comments that you made, as 
well as your testimony. You analogized the plight of animals to 
that of the African-American slaves of early American history, 
asserting that the animal rights movement is similar to that of 
the Underground Railroad. You even at one time or several times 
have talked about the Jews in Nazi Germany.
    It sounds to me, in looking at this, like you're evaluating 
the lives of human beings in a similar way that you are 
animals. Do you think animals' lives are as precious as human 
life?
    Dr. Vlasak. Non-human lives, non-human animal lives, are as 
precious as human lives. At one time, racism and sexism and 
homophobism were prominent in our society. Today speciesism is 
prominent in our society. It is just as wrong as racism.
    Senator Inhofe. So you do put them in the same category, 
the animals of non-human and human lives? Is that correct?
    Dr. Vlasak. They are morally equal.
    Senator Inhofe. They are morally equal?
    Dr. Vlasak. They are.
    Senator Inhofe. One of the statements you made at the 
animal rights convention when you were defending assassinating 
people, murdering people, you said--let me put it up here to 
make sure I'm not misquoting you--``I don't think you'd have to 
kill, assassinate too many. I think for 5 lives, 10 lives, 15 
human lives, we could save 1 million, 2 million, or 10 million 
non-human lives.''
    You're advocating the murder of individuals, isn't that 
correct?
    Dr. Vlasak. I made that statement, and I stand by that 
statement. That statement is made in the context that the 
struggle for animal liberation is no different than struggles 
for liberation elsewhere, whether the struggle for liberation 
in South Africa against the apartheid regime, whether the 
liberation against the communists, whether it were the 
liberation struggles in Algeria, Vietnam or Iraq today, 
liberation struggles occasionally or usually, I should say, 
usually end up in violence.
    There is plenty of violence being used on the other side of 
the equation. These animals are being terrorized, murdered and 
killed by the millions every day. The animal rights movement 
has been notoriously non-violent up to this point.
    But I don't believe that--I believe as my statement says--
--
    Senator Inhofe. Let me interrupt. You said it has been 
notoriously non-violent up to this time?
    Dr. Vlasak. That is correct.
    Senator Inhofe. You don't think there is violence in the 
testimony you've heard?
    Dr. Vlasak. I think when you compare the 500 animals being 
murdered every single day at Huntingdon Life Sciences, which is 
just one company, I think when you look at the amount of 
violence that goes on at Mr. Boruchin's house, getting a little 
spray paint on the wall, I think if you look at the amount of 
violence that went on at this yacht club in New York, where 
again, some spray paint was slapped up on a wall, I don't think 
you can compare that kind of vandalism with the murder of 
millions of animals.
    Senator Inhofe. So you call for the murders of researchers 
and human life?
    Dr. Vlasak. I said in that statement and I meant in that 
statement that people who are hurting animals and who will not 
stop when told to stop, one option would be to stop them using 
any means necessary and that was the context in which that 
statement was made.
    Senator Inhofe. Including murdering them, is that correct?
    Dr. Vlasak. Pardon?
    Senator Inhofe. Including murdering them?
    Dr. Vlasak. I said that would be a morally justifiable 
solution to the problem.
    Senator Inhofe. Senator Lautenberg.
    Senator Lautenberg. Dr. Vlasak, you approve of these 
dastardly acts in the name of liberation, of a liberation 
movement. Do you have any children?
    Dr. Vlasak. I have no children. Just to be clear, I don't 
approve of any unnecessary suffering. I wish these things 
didn't have to happen.
    Senator Lautenberg. Fine. You do. What you have said 
confirms it. So I just want to go there. I want to know who you 
are, what makes you tick. Because it is so revolting to hear 
what you say about the murder. These aren't extermination 
camps. What's being done, whether you like it or not, is to try 
and improve the quality of life for human beings. This isn't 
Germany.
    How do you feel about people, you said you think people who 
have a cause have a right to violence. How about the guys who 
kill our soldiers and who killed the people in the Trade 
Towers? They have a cause. Is that ok with you?
    Dr. Vlasak. No. Unnecessary loss of life is never ok with 
me. I extend that loss of life to animal life, non-human animal 
life as well.
    Senator Lautenberg. You're the super moralist, you're 
deciding where it's right and where it's wrong. Many people who 
have causes, some of them justified, but to take tactics like 
the intimidation of people to spoil their lives or spoil their 
ability to make a living is an outrageous thing to propose. 
You're anti-social in your behavior, obviously. But to sit here 
so smugly and be proud of the fact that you stand by this 
statement about 5 or 10 lives, if those lives were your kids, 
well, maybe you don't have anybody you love. You don't have any 
kids.
    Can I ask you a question? Mr. Boruchin's life has been 
exposed, credit card numbers, everything else. Where did you go 
to medical school?
    Dr. Vlasak. I attended medical school at the University of 
Texas, in Houston.
    Senator Lautenberg. Where do you practice now?
    Dr. Vlasak. I practice in the Los Angeles area.
    Senator Lautenberg. At a hospital?
    Dr. Vlasak. I do. A number of hospitals.
    Senator Lautenberg. What is your favorite, what is your 
dominant hospital activity?
    Dr. Vlasak. I practice at several hospitals in the 
Riverside and San Bernadino area.
    Senator Lautenberg. Name one.
    Dr. Vlasak. Loma Linda University.
    Senator Lautenberg. Mr. Chairman, first of all, I think in 
terms of the New York Stock Exchange, a place I am familiar 
with through my earlier business life, ADP, and also my 
company, my ex-company, provided restoration of activities 
after 9/11. The assault took place on a Tuesday and by Monday, 
my company, my ex-company, without contract, without pricing 
discussions, had a company named Cantor Fitzgerald back and 
operating in less than 6 days, never had any business with them 
before.
    So I am directly involved, have been, and we listed on the 
New York Stock Exchange. We could subpoena records, I guess, 
Mr. Chairman, and find out why it is that the New York Stock 
Exchange decided not to permit this company's listing. Because 
if all things are in order, this isn't the local golf club or 
something. Someone applies and they have the qualifications 
financially and there is no scandal attached, I assume that you 
have no right not to list. Is that so, Mr. Bernard?
    Mr. Bernard. No, sir, that's not so. Those so-called 
blackline criteria are the minimum bar, and the Exchange has 
the right, in its rules approved by the SEC, to bring in other 
factors in making a listing decision.
    Senator Lautenberg. Right. But if they meet the criteria 
that's established, is someone saying, I don't like the way he 
combs his hair or something?
    Mr. Bernard. Well, it's certainly not to be trivialized, 
but the Exchange has minimum criteria that are financial and 
corporate governance.
    Senator Lautenberg. Right.
    Mr. Bernard. After that, it's making a business decision, 
just as ADP would in choosing to help Cantor Fitzgerald, for 
which ADP should be very much appreciated.
    Senator Lautenberg. I think we ought to go further.
    Dr. Vlasak, how do you feel about animals like rats and 
mice? The use of experimentation on them to see how they react 
to different medications, things of that nature, would you 
permit that?
    Dr. Vlasak. I think it's a hugely wasteful use of scarce 
resource dollars that we have in the medical industry. We have 
much better ways of showing whether a drug is toxic to a human 
being or not, rather than choking it down a rat's or a mouse's 
throat.
    I think from a scientific standpoint----
    Senator Lautenberg. If they are injected----
    Dr. Vlasak. Pardon?
    Senator Lautenberg. If they are injected with a material, 
is that OK?
    Dr. Vlasak. As I was trying to explain to you, I think from 
a scientific standpoint, there is so little validity to doing 
that, that we're wasting hundreds of millions of scarce health 
care dollars. Even if it did work, though, and it doesn't, but 
even if it did, I'd still be against it. Because the same 
reason I'm against the experimentation that happened on human 
beings against their will, whether it was in Nazi concentration 
camps or whether it was here in the United States----
    Senator Lautenberg. We shouldn't experiment on human 
beings.
    Dr. Vlasak. There were people who were experimented on 
against their will. They have good, useful results and they 
published it in the same medical journals that I read today. 
But it was wrong. Whether it worked or not doesn't matter.
    Senator Lautenberg. Since I have the mic on this side, I 
would prefer that we follow my line. So you would say, there is 
something called the Lautenberg Cancer Research Center. I 
helped establish that, because my father died when he was 43 
years old. He got sick at age 42, he worked in a mill in 
Patterson, NJ, as did his brother, my uncle. He died when he 
was 52, also cancer, their father died also of cancer when he 
was 56.
    When I had the good fortune of success in business, I put 
some resources into a group of New Jersey scientists who were 
moving abroad, to learn more about cancer research. After 
watching my father suffer for a year, 13 months, he was 
athletic; he was strong; he exercised; he was very careful 
about his diet. I had enlisted in the Army when my dad finally 
died, and I made the decision then that I would do whatever I 
can to try and prevent another family from undergoing the same 
torture and grief, the same individual.
    But you are so smug, if you'll forgive me, about what is 
right and what is wrong. If I asked you a question about mice, 
mice that are raised particularly, Mr. Chairman, for learning 
more about the anatomy of the animal and see if we can convert 
that. Right now, there is all kinds of talk about using, even 
using animal organs for life saving. You wouldn't permit that, 
would you?
    Dr. Vlasak. Well, I'm sorry to say that your organization 
is wasting money on mice and rat experimentation, when we know 
much better ways to find cures for human beings.
    Senator Lautenberg. I'll tell the scientists there about 
that.
    Dr. Vlasak. Let me just address the transplantation issue 
that you brought up. As you know, xenotransplantation, or 
placing animal organs into human beings, that's not going to 
work. It hasn't worked, and it's not going to work any time in 
the near future. We have a hard enough time transplanting human 
organs into human beings and all the immunosuppressives that 
are required to do that.
    Senator Lautenberg. We can't find them all that we need.
    Dr. Vlasak. Well, we could, if we had a presumed consent 
law, for instance. If you guys would pass a law that says 
everybody's an organ donor unless proven otherwise, or unless 
they declare they don't want to be. This has been done in 
Belgium, they get all the organs they need by doing laws like 
that.
    There is not a shortage of organs absolutely, there is a 
shortage of organs that we can get at the last minute. I deal 
in trauma patients, I see people die every day. I save lives, 
but I lose lives sometimes as well.
    Senator Lautenberg. But you're willing to take lives. 
That's the anomaly here. You are willing to say that somebody 
you don't know, somebody's kid, somebody's parent, somebody's 
brother, somebody's sister, take that life, that's ok.
    Dr. Vlasak. These are not innocent lives.
    Senator Lautenberg. You'll teach those SOBs a lesson about 
killing those mice or killing those animals, or doing 
experimentation that's going to make this world----why are we 
living longer? It is because we experimented in different ways. 
And for you to sit there and you decide what the proper course 
of action is in the sanctity of your practice and the rules of 
your club here, which is identified in your statement, 
``morally acceptable,'' I don't want to waste my own energy any 
more.
    Mr. Chairman, this is an outrage to have an individual sit 
here and impose a standard that is supposed to fit all of 
society. I don't know whether, at Mr. Bibi's company, 
everything they do is exactly right. I know that what they're 
trying to do is to help us live better lives, all of us. And I 
hope that they continue.
    And when I see a kid down here, at Walter Reed Hospital, 
who's lost a leg or lost a part of his body, and they find 
ways, because they have experimented with things, maybe to 
regrow even bone, it's fantastic, and I want it to continue. 
You have no right to intimidate people who are engaged in a 
proper practice under our laws. You want the law changed? Write 
letters. Come down here and ask for a change in law about 
whether or not animal experimentation is right. Don't take the 
law into your own hands. That's a bad mistake.
    Dr. Vlasak. HLS isn't trying to save human lives. They're 
trying to turn a profit, nothing else.
    Senator Inhofe. Senator Lautenberg, thank you. I think you 
and I can go a long ways to correcting what we have seen here 
today with the law that we are introducing, and I look forward 
to working with you on the floor of the Senate to make sure 
that we get this thing passed and give the FBI and the 
Department of Justice the necessary tools to stop this type of 
perversion in our society.
    My son called me up right before this hearing, he noticed 
we were having this hearing. He's a doctor. He said, at some 
point, you need to explain to them that it's either going to be 
the lives of these animals or human life. When I call him back, 
Dr. Vlasak, and tell him that we have a witness who equates 
animals lives with human lives, then that takes away all the 
argument. If you believe that in your own heart, what you do, 
and you have advocated the assassination, the murder of human 
lives, of human beings, of researchers, then I don't see any 
reason to go any further with this.
    I can just assure you that we are going to give law 
enforcement the necessary tools to stop this type of thing from 
happening. I can assure you of that. That's not a maybe, that's 
a definite.
    And the rest of you, for having the courage to come here 
and relate this to us today, I can assure you that there are 
many members who aren't here who are on this panel whose staff 
is here. They will be submitting questions for the record to 
all four of you. I hope that you will be able to respond to 
those, and I can assure you, this has been a very useful 
hearing. I appreciate your presence here.
    We are adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]

    [Additional statements submitted for the record follow:]
       Statement of Senator James M. Jeffords, U.S. Senator from 
                          the State of Vermont
    Today, the Environment and Public Works Committee holds its second 
hearing of the year on ``eco-terrorism,'' this time focused on an 
extremist animal rights group called ``Stop Huntingdon Animal Cruelty'' 
or SHAC.
    Like every member of this Committee, I condemn the campaign of 
violence and intimidation perpetrated by members of this group. 
Motivated by their extreme animal rights agenda, SHAC members have 
claimed responsibility for sabotage, trespass, destruction of property, 
harassment and vandalism.
    These actions are criminal. And we have laws already on the books 
that allow prosecution for such crimes. While SHAC has not caused any 
serious injuries or deaths in the United States, we should act quickly 
to prevent the escalation of this violence. I therefore was pleased to 
learn that the U.S. Department of Justice has indicted seven of SHAC's 
leaders, who are currently awaiting trial in New Jersey.
    These extremists do not represent the mainstream environmental or 
animal rights community. Mainstream groups have been very effective in 
using lawful means to advance their agenda. Educational outreach, 
shareholder resolutions and dedicated volunteers have significantly 
improved the treatment of animals in the United States. Groups such as 
the Humane Society of the United States, the People for the Ethical 
Treatment of Animals (PETA), the Doris Day League and the American 
Society for the Prevention of Cruelty to Animals have all submitted 
letters to the Committee denouncing violence in the name of animal 
protection. I'd like to enter these letters into the official record of 
today's hearing.
    When Americans think of terrorism, they think of the collapse of 
the Alfred P. Murrah Federal Building in Oklahoma City, the attack on 
the World Trade Center, or the bloody images on the nightly news from 
Iraq. In contrast, SHAC appears to be composed of perhaps a few dozen 
extremists engaged in a systematic campaign of intimidation and 
harassment of a single animal testing company. In our current state of 
fear, it is easy to get headlines by using the term ``terrorism.'' But 
sometimes, a criminal is just a criminal.
    I also believe that there are higher priorities that this Committee 
should be devoting its time and energy. If we are truly interested in 
protecting our citizens from the effects of domestic terrorism, we 
should be focusing on the security of the nation's critical 
infrastructure, such as our wastewater and chemical plants. We should 
also be working to finance the nation's water infrastructure and to 
protect kids from exposure to dangerous chemicals. Directing help to 
the victims of Katrina, Rita and now Wilma should also be a high 
priority for the Committee. In contrast, the Senate Environment and 
Public Works Committee does not have jurisdiction over either the 
Animal Enterprises Protection Act or the U.S. criminal code. As a 
result, there is not much this Committee can do in response to these 
hearings.
    Nevertheless, I take seriously the Department of Justice's 
recommendations that amendments to our criminal code would enhance the 
law enforcement community's ability to respond to the illegal actions 
of animal rights extremists. I will consider co-sponsoring a proposal 
with Senator Inhofe to further refine the Animal Enterprise Protection 
Act to give prosecutors the tools necessary to combat animal rights 
extremists. Such a proposal would need to fill the gaps in the existing 
law while respecting the First Amendment's protection of free speech. I 
look forward to reviewing Senator Inhofe's proposal and working with 
our colleagues on the Judiciary Committee, which would likely have 
jurisdiction over such a bill.
    I regret that I cannot be in attendance at today's hearing due to a 
scheduling conflict with the Finance Committee meeting to discuss World 
Trade Organization negotiations and the international trade agenda with 
Ambassador Portman. I will review the transcript of the hearing and may 
submit questions for the record.
                               __________
Statement of John E. Lewis, Deputy Assistant Director, Counterterrorism 
               Division, Federal Bureau of Investigation
    Good morning Chairman Inhofe, Ranking Member Jeffords, and members 
of the Committee. I am pleased to be here again to discuss the threat 
posed by animal rights activists, and by the Stop Huntingdon Animal 
Cruelty, or the SHAC movement in particular.
    I am here today to speak to you about how members of the animal 
rights extremist movement advance their cause by using so-called direct 
action against individuals or companies. ``Direct action'' is criminal 
activity designed to cause economic loss or to destroy property or 
operations. I see disturbing signs of success in what they are doing 
and legitimate business is suffering. I will also touch on the 
limitations of existing statutes.
    It is critical to recognize the distinctions between 
constitutionally protected advocacy and violent, criminal activity. It 
is one thing to write concerned letters or hold peaceful 
demonstrations. It is another thing entirely, to construct and use 
improvised explosive or incendiary devices, to harass and intimidate 
innocent victims by damaging or destroying property, or other 
threatening acts. Law enforcement should only be concerned with those 
individuals who pursue their animal rights agenda through force, 
violence, or criminal activity. Unfortunately, the FBI sees a 
significant amount of such criminal activity across our investigations.
    Let me begin with a brief overview of the domestic terrorism 
threats that come from special interest extremist movements such as the 
Animal Liberation Front (ALF) and the Stop Huntingdon Animal Cruelty 
(SHAC) campaign. Members of these movements aim to resolve their issues 
by using criminal ``direct action'' against individuals or companies 
believed to be exploiting or abusing animals, as well as other 
companies believed to be doing business with the target of their direct 
actions.
    The extremists' efforts have broadened to include a multi-national 
campaign of harassment, intimidation and coercion against animal 
testing companies and any companies or individuals doing business with 
those targeted companies. This ``secondary'' or ``tertiary'' targeting 
of companies that have business or financial relationships with the 
principal target generally takes the form of fanatical harassment of 
employees and interference with normal business operations, using the 
threat of escalating tactics or violence.
    The best example of this trend is the Stop Huntingdon Animal 
Cruelty campaign, known as SHAC. Since its inception in 1999, SHAC has 
conducted a relentless campaign of terror and intimidation specifically 
targeting Huntingdon Life Sciences, an animal research laboratory. 
SHAC's overriding goal is to put HLS out of business, by whatever means 
necessary even by violent means.
    SHAC has targeted not just HLS, but companies that are affiliated 
with it. SHAC's website publishes lists of these companies, ranging 
from pharmaceutical companies to builders to investors. SHAC has used a 
variety of tactics to harass and intimidate these affiliate companies, 
their employees, and family members, including bombings, death threats, 
vandalism, office invasions, phone blockades, and denial-of-service 
attacks on their computer systems.
    Unfortunately, this strategy has been quite effective. Over 100 
companies many of them in the U.S. have severed ties with HLS, 
including Aetna Insurance, Citibank, Deloitte & Touche, Johnson and 
Johnson, and Merck. SHAC's current target list includes 
GlaxoSmithKline, Roche, Novartis, UPS, and multiple financial 
institutional investors. SHAC has targeted not only the facilities of 
these companies, but also their employees and family members.
    However, when these companies or individuals are threatened or 
attacked, it is not necessarily the work of SHAC itself. There may be 
overlap in membership in extremist movements, which can make it 
difficult to identify the actual perpetrators. Also, in the past 18 
months, a number of SHAC splinter groups have been created, which use 
SHAC tactics and focus on SHAC targets. This is most likely an attempt 
by animal rights extremists to continue the SHAC campaign while 
appearing to distance themselves from the SHAC organization. However, 
while the SHAC organization attempts to portray itself merely as an 
information service or media outlet, it is closely aligned with these 
groups, as well as with the Animal Liberation Front. Many of the ALF's 
criminal activities are directed against companies and individuals 
selected as targets by SHAC and posted on SHAC's website.
    Let me give you several examples. In August 2003, two improvised 
explosive devices detonated at the Chiron Corporation. A month later, 
an improvised explosive device wrapped in nails exploded at the 
headquarters of the Shaklee Corporation in California. The companies 
were targeted because they have ties to HLS. The previously unknown 
``Revolutionary Cells of the Animal Liberation Brigade'' claimed 
responsibility via an anonymous communique, which stated: ``We gave all 
of the customers the chance, the choice, to withdraw their business 
from HLS. Now you will reap what you have sown. All customers and their 
families are considered legitimate targets...no more will all the 
killing be done by the oppressors, now the oppressed will strike 
back.'' Following this attack, the FBI's Joint Terrorism Task Force in 
San Francisco identified and charged known activist Daniel San Diego in 
connection with the bombings. He is currently a fugitive from justice.
    In another example, last month an incendiary device was left on the 
front porch of a senior executive at GlaxoSmithKline in England. The 
executive was not home when the bomb detonated, but his wife and 
daughter were inside. Fortunately, no one was hurt. GlaxoSmithKline is 
one of SHAC's main targets, yet it was the ALF that claimed 
responsibility for the attack. In a message posted on the Internet, 
activists wrote: ``We realize that this may not be enough to make you 
stop using HLS but this is just the beginning. We have identified and 
tracked down many of your senior executives and also junior staff, as 
well as those from other HLS customers. Drop HLS or you will face the 
consequences.''
    That same week, British newspapers reported that a chain of 
children's nursery schools had become a target of SHAC. Leapfrog Day 
Nurseries, a major provider of childcare in Great Britain, had a 
program that offered childcare vouchers to HLS employees. A spokesman 
announced that Leapfrog Nurseries had received letters from animal 
rights activists threatening physical force. One news account quoted a 
letter as saying: ``Not only you but your family is a target. Sever 
your links with HLS within two weeks or get ready for your life and the 
lives of those you love to become a living hell.'' In order to ensure 
the safety of the children and their employees, Leapfrog Nurseries cut 
ties with HLS. Again, an extremist group other than SHAC is believed to 
be responsible for the victory but by extension, it is also a victory 
for the SHAC campaign.
    And most recently, last month Carr Securities began marketing the 
Huntingdon Life Sciences stock. The next day, the Manhasset Bay Yacht 
Club, to which certain Carr executives reportedly belong, was 
vandalized by animal rights activists. The extremists sent a claim of 
responsibility to the SHAC website, and 3 days after the incident, Carr 
terminated its business relationship with HLS. These are just some of 
the examples of SHAC's use of threats and violence to financially 
strangle HLS and permanently mar its public image. These examples 
demonstrate some of the difficulties law enforcement faces in combating 
acts of extremism and domestic terrorism. Extremists are very 
knowledgeable about the letter of the law and the limits of law 
enforcement. The SHAC website has a page devoted to instructing 
activists on how to behave toward law enforcement officers, how to deal 
with interrogations, and what to say and not say if they are arrested.
    Extremists also adhere to strict security measures in both their 
communications and their operations. The SHAC website advises activists 
to ``NEVER discuss illegal activity indoors, over the phone, or 
email...keep the discussion of illegal activity on a need to know basis 
only. This means working only with people you know and trust and 
discussing your action with the people you are carrying it out with and 
no one else.''
    Despite the challenges posed by the cellular, autonomous nature of 
extremists and their high operational security, the FBI and its law 
enforcement partners have worked steadily to investigate and deter 
extremist activity. Our job is to protect all citizens from crime and 
terrorism, whether international or domestic in origin. We now have 103 
Joint Terrorism Task Forces nationwide, which investigate and protect 
our communities from domestic and international terrorists. We have 
used a wide variety of techniques to investigate criminal activity 
conducted by SHAC, and have collected vital intelligence and evidence. 
And we are making progress.
    In one example of a recent success, last May the FBI helped secure 
criminal indictments in New Jersey against the SHAC organization and 
seven of its national leaders, charging them with Animal Enterprise 
Terrorism, Conspiracy, and Interstate Stalking. They are known among 
animal rights activists as the ``SHAC 7.'' Last September, a federal 
grand jury returned a superseding indictment against the SHAC 7, 
charging them with Harassing Interstate Communications because of the 
posting of ``target'' information on the SHAC website, which continues 
to result in vandalism, harassment and intimidation of victim companies 
and their employees. Their trial is set for February 2006.
    But despite successes such as this, the FBI's efforts to target 
these movements in order to prevent and disrupt criminal activity have 
been hindered by a lack of applicable federal criminal statutes. This 
is particularly frustrating as we attempt to dismantle organized, 
multi-state campaigns of intimidation, vandalism, threats and coercion 
designed to interfere with legitimate interstate commerce, as exhibited 
by SHAC. While it is a relatively simple matter to prosecute extremists 
who have committed arson or detonated explosive devices, under existing 
federal statutes it is difficult, if not impossible, to address a 
campaign of low-level criminal activity like that of SHAC.
    In order to address SHAC's crusade to shut down legitimate business 
enterprises through direct action, the FBI initiated a coordinated 
investigative approach, beginning in 2001. FBI field offices that had 
experienced SHAC activity worked closely with U.S. Attorneys' Offices, 
the Justice Department, and FBI Headquarters to explore strategies for 
investigation and prosecution. First, we examined the idea of using the 
existing Animal Enterprise Terrorism statute, as set forth in 18 U.S.C. 
Sec. 43, which provides a framework for prosecuting individuals 
involved in animal rights extremism. In practice, however, the statute 
does not cover many of the criminal activities SHAC routinely engages 
in on its mission to shut down HLS. The current version of the section 
43 only applies when there is ``physical disruption'' to the 
functioning of an animal enterprise that results in damage or loss of 
property. But, as you have heard me describe, HLS has been economically 
harmed by threats and coercion that did not ultimately cause property 
damage.
    For example, in 2004, SHAC targeted Seaboard Securities, a company 
that provided financial services to HLS. SHAC posted the phone numbers 
and addresses for Seaboard Securities' offices on its website, and also 
provided detailed recommendations on how to harass the company. The 
SHAC campaign against Seaboard included phone blockades, office 
invasions and damage to property belonging to Seaboard Securities and 
its employees. In the wake of this pressure, Seaboard Securities 
severed its relationship with HLS in January 2005.
    Much of this activity cannot be prosecuted under 18 U.S.C. Sec. 43 
nor are there other federal criminal statutes that provide effective 
prosecutorial remedies. Moreover, even when section 43 does apply, the 
current penalty of up to 3 years in prison has failed to deter a 
tremendous amount of criminal conduct. The activities of SHAC 
frequently fall outside the scope of the statute, and because members 
are well-versed in the limits of the statute, they have tended to 
engage in conduct that, while criminal, would not result in a 
significant federal prosecution.
    As we continued to examine these legislative challenges, another 
option we considered was prosecution under the Hobbs Act (18 U.S.C. 
Sec. 1951). Under this legal theory, prosecution was based on the 
premise that the subjects were engaged in an extortion scheme against 
companies engaged in, or doing business with, animal-based research. 
Victims were subjected to criminal acts such as vandalism, arson, 
property damage, physical attacks, or the fear of such attacks, until 
they discontinued their research or terminated their association with 
or investment in animal-based research companies such as HLS.
    However, the Supreme Court's 2003 decision in Scheidler v. National 
Organization for Women removed the Hobbs Act as an option. The decision 
states that such conduct by activists does not constitute extortion as 
defined under the Hobbs Act unless the activists seek to obtain or 
convert the victims' property for their own use.
    The FBI would support changes to the statutes that will address the 
issue of secondary and tertiary targeting by organizations like SHAC. 
We will continue to work with our Department of Justice colleagues and 
the Congress to refine and amend existing statutes so that we may have 
more effective tools to address this growing crime problem.
    Investigating and preventing animal rights extremism is one of the 
FBI's highest domestic terrorism priorities. We are committed to 
working with our partners to disrupt and dismantle these movements, to 
protect our fellow citizens, and to bring to justice those who commit 
crime and terrorism in the name of animal rights.
    Chairman Inhofe and Members of the Committee, I appreciate the 
opportunity to discuss the challenges we face in this area of our work. 
I would be happy to answer any questions you may have. Thank you.
                               __________
Statement of Barry M. Sabin, Chief, Counterterrorism Section, Criminal 
                    Division, Department of Justice
    Mr. Chairman, members of the Committee, thank you for providing me 
the opportunity to appear here today and testify before you concerning 
the Department of Justice's efforts to investigate and prosecute 
entities and individuals who commit criminal acts in the name of animal 
rights. In that regard, I will seek to address some of the strengths 
and limitations of the laws that presently provide the means by which 
we investigate and prosecute animal rights extremist matters. These 
investigations are an important part of the mission of the Department 
of Justice to protect the American people and our institutions from 
acts and threats of violence.
    As you know, counterterrorism is the number one priority of the 
Department of Justice. As such, we remain dedicated to the task of 
protecting the American people from violence and the threat of violence 
posed by terrorism while at the same time protecting the First 
Amendment rights and other civil liberties guaranteed to all Americans 
in the Constitution. In protecting America and Americans from the 
threat of terrorism, though, we recognize that the threat to the 
American people comes not only from extremists overseas, but also from 
extremists located within our borders.
    In order to ensure that the Department has all the necessary 
investigatory tools, legal authorities and appropriate penalties, the 
Department supports amending Title 18, United States Code, Section 43 
to include economic disruption to animal enterprises and threats of 
death and serious bodily injury to associated persons. The proposed 
modifications provide a clear and constitutional framework for timely, 
effectively and justly addressing prohibited criminal conduct that will 
ensure that victims' rights are respected and preserved.
        justice department efforts to combat domestic extremists
    Mindful of incidents such as the 1995 bombing of the Alfred P. 
Murrah Federal Building in Oklahoma City, the United States government 
is resolved to address the use of violence by Americans, against other 
Americans, for the purpose of coercing the government or intimidating 
civilians in furtherance of political or social goals. The Department 
of Justice has had numerous recent successes in combating those 
Americans who commit acts of domestic terrorism. Working in a task 
force approach with our state and local partners, we have sought to 
timely share information across the Nation to prevent incidents from 
occurring. These Joint Task Forces have sought to use all available 
investigatory tools, including undercover operations and informants, as 
well as all available criminal statutes, such as interstate stalking 
and explosives statutes, to disrupt violent groups and marshal 
compelling evidence to bring them to justice.
    For example, in the past year the Department has prosecuted white 
supremacists who have used or threatened to use violence against other 
Americans. In November, 2004, in the District of Nevada, former Aryan 
Nations official Steve Holten pleaded guilty to sending threatening 
messages to employees of several local newspapers, as well as state 
government employees. On February 25, 2005, in the Western District of 
Pennsylvania, Ku Klux Klan leader David Wayne Hull was sentenced to 12 
years in prison for unlawfully teaching a government informant how to 
construct an improvised explosive device. Matthew Hale--formerly the 
leader of the World Church of the Creator--was sentenced on April 6, 
2005, to serve 40 years in prison for, among other things, soliciting 
the murder of a federal district court judge in the Northern District 
of Illinois. On August 30, 2005, neo-Nazi skinhead Sean Gillespie--who 
videotaped himself fire-bombing a synagogue--was sentenced to 39 years 
in prison in the Western District of Oklahoma.
    The Department has also prosecuted other extremists who used or 
threatened to use explosives to commit acts of violence. On July 18, 
2005, Eric Rudolph was sentenced to life in prison for the bombing of 
an abortion clinic in Birmingham, Alabama, as well as a night club and 
Centennial Park in Atlanta, Georgia. On September 12, 2005, Gale 
William Nettles was convicted of conspiring to blow up the Dirksen 
Federal Building in Chicago, Illinois. On September 22, 2005, former 
Jewish Defense League leader, Earl Krugel, was sentenced to 20 years in 
prison for carrying an explosive device as part of a conspiracy to 
injure or impede a United States Congressman and damage a mosque.
    Similarly, the Department has also made progress in prosecuting 
animal rights and environmental extremists who have violated federal 
law. On November 19, 2004, in the Central District of California, 
William Cottrell was convicted for the arson of a car dealership in 
West Covina, California, as well as numerous sport utility vehicles. In 
the Western District of Wisconsin, Peter Young pleaded guilty on 
September 2, 2005, to violations of the Animal Enterprise Protection 
Act arising from his activities in 1997 in Wisconsin and other states. 
Earlier this month, on October 14, 2005, environmental extremist Ryan 
Lewis, and two associates, pleaded guilty in the Eastern District of 
California to arson and attempted arson of several partially completed 
homes under construction.
      the threat posed by shac and other animal rights extremists
    As this Committee well knows, animal rights extremists have not 
hesitated to use violence to further their social and political goals. 
In those cases where individuals have used improvised incendiary or 
explosive devices, federal prosecutors are well-equipped to prosecute 
and punish such individuals using the tools provided in Title 18, 
United States Code, section 844.
    Domestic violence by animal rights extremists is not limited, 
however, to the use of arson and the use of explosives. As Mr. Lewis 
has described in his testimony, Stop Huntingdon Animal Cruelty (or 
SHAC) and other animal rights extremist organizations and entities are 
engaging in a campaign of criminal conduct which is calculated to 
aggressively intimidate and harass those whom it identifies as targets. 
In pursuit of its goal of closing the animal testing operations of 
Huntington Life Science (HLS), SHAC's campaign has included a wide 
variety of ``direct action'' techniques specifically designed to coerce 
the subjects of those efforts while avoiding an effective law 
enforcement response. Harassment of other businesses, and the employees 
of those businesses, vandalism of property belonging to individuals 
whose only offense is working for a company that does business with 
HLS, or, even worse, publication of private information about such 
individuals, their spouses and even their young children, are only some 
of the techniques used by SHAC and like-minded persons to coerce and 
intimidate companies and individuals. With every perceived success, 
SHAC emboldens other extremist organizations to act similarly. The 
personal and economic consequences of this campaign have been, and will 
continue to be, significant.
  tools for the prosecution of shac and similar groups and individuals
    In the past, this kind of criminal conduct was prosecuted as a 
violation of the Hobbs Act, codified in section 1951 of Title 18 of the 
United States Code. In Scheidler v. National Organization for Women,\1\ 
however, the United States Supreme Court held that, in order to commit 
the extortion that is the gravamen of a Hobbs Act violation, a 
defendant must actually ``obtain'' property--that is, he or she must 
take a tangible thing of value from his or her victim. The Supreme 
Court specifically rejected the notion that a Hobbs Act violation was 
committed by a person or entity who, like SHAC, acts to deprive the 
victim of the free exercise of his or her property rights. Thus, while 
conduct similar to SHAC's campaign was previously investigated and 
prosecuted as Hobbs Act violations, after the Scheidler decision in 
2003, that option was no longer available to federal prosecutors.
---------------------------------------------------------------------------
    \1\ 537 U.S. 393, 123 S. ct. 1057, 154 L.Ed.2d 991 (2003).
---------------------------------------------------------------------------
    On the other hand, the Animal Enterprise Protection Act, codified 
at section 43 of Title 18, is still an important tool for prosecutors 
seeking to combat animal rights extremists. This statute was passed in 
1992 primarily to address the problem of those who physically intruded 
upon the property of entities who tested or otherwise used animals in 
order to damage the property belonging to the animal enterprise. 
Originally established as a misdemeanor, the statute's penalties have 
been enhanced by amendments in 1996 and 2002.
    The Department has used Section 43 to charge SHAC and seven 
individual defendants in federal district court in New Jersey. The 
indictment alleges that the defendants conspired to engage in ``direct 
action'' activities, which was described by SHAC to involve activities 
that ``operate outside the confines of the legal system.'' The 
indictment further alleges that the SHAC Website posted what it termed 
the ``top 20 terror tactics'' that could be taken against companies or 
individuals.
    The six-count superseding indictment alleges violations of 
interstate stalking, in violation of Title 18, United States Code, 
Section 2261A, and conspiracy to utilize a telecommunications device to 
abuse, threaten and harass persons, in violation of Title 47, United 
States Code, Section 223(a)(1)(c). The charges are pending and a trial 
is scheduled for February 2006.
    While section 43 is an important tool for prosecutors, SHAC and 
other animal rights extremists have recognized limits and ambiguities 
in the statute and have tailored their campaign to exploit them. While 
the Department is confident that some of SHAC's conduct violates this 
statute in its current form, amendment of the statute to make clear and 
unequivocal the application of the statute to recent trends in animal 
rights extremism will enhance the effectiveness of the Department's 
response to this domestic threat.
     proposed amendment of title 18, united states code, section 43
    Accordingly, the Department supports Senator Inhofe's effort to 
amend the Animal Enterprise Protection Act in order to address several 
gaps in the law that keep prosecutors from using it in the most 
effective manner possible.
    First, the statute's definition of the type of ``animal 
enterprise'' that it protects is not broad enough to include some of 
the entities that are now targeted by SHAC and other animal rights 
extremists. These include pet stores and even animal shelters. The 
threat posed to individuals associated with such organizations is no 
less significant than the threat that gave rise to the original 
statute. Senator Inhofe's proposal would expand the definition of 
``animal enterprise'' so that these types of victims are also clearly 
included within the scope of the statute.
    Second, the statute's use of the phrase ``physical disruption'' to 
describe the conduct it proscribes unnecessarily suggests that it 
covers a narrow scope of conduct tantamount to trespass. In that 
regard, the statute permits the argument that it does not cover actions 
by SHAC or other animal rights extremists taken not against an animal 
enterprise, but against those entities that choose to do business with 
an animal enterprise. While careful parsing of the language of the 
statute makes clear that this is not the case, lack of clarity 
threatens effective use of the statute. Senator Inhofe's proposal 
avoids this ambiguity by focusing instead on ``economic disruption'' 
(that is, business losses) and ``economic damage'' (that is, physical 
property damage) resulting from the threats or property damage that it 
would proscribe. In doing so, it would more effectively protect animal 
enterprises from the criminal conduct in which animal rights extremists 
like SHAC currently engage.
    Third, Senator Inhofe's proposal would include this type of 
criminal conduct as a predicate for seeking electronic surveillance 
authority. Participants in the animal rightsextremist movement exercise 
excellent tradecraft, and are very security conscious. Animal rights 
extremists have made extensive use of the internet for communications 
and have relied upon electronic mail and other communications media to 
interact. These communications are occurring on a national level, and 
electronic surveillance provides law enforcement authorities a timely 
and effective means for capturing and sharing information. Law 
enforcement personnel should not be restricted from proactively seeking 
approval from a federal district court judge to capture probative 
evidence that would assist their criminal investigations.
    Fourth, in its current form, the statute fails to address clearly 
the consequences of a campaign of vandalism and harassment directed 
against individuals--as opposed to the animal enterprise itself. 
Senator Inhofe's proposal would remedy this ambiguity by clearly 
stating that committing the proscribed conduct against an individual, 
including an employee of an animal enterprise (or of an entity with a 
relationship with an animal enterprise), is equally illegal.
    Finally, Senator Inhofe's proposal provides a range of penalties 
including imprisonment, fines and restitution that are tailored to 
reflect the nature and severity of the criminal conduct. This broad 
range of penalties will enable the government to effectively and 
appropriately charge the accused with a crime commensurate with the 
accused's criminal conduct and to seek punishment reflecting that 
degree of culpability.
    Viewed in its entirety, the changes in Senator Inhofe's proposal 
would empower prosecutors with a more effective tool to meet the 
challenges now posed by animal rights extremists. I strongly encourage 
the Committee to endorse this proposal.
                         protecting the victims
    It is important to underscore that this Congress and the Justice 
Department have taken significant steps to assist and protect victims 
of crime. The Justice For All Act, passed with overwhelming bipartisan 
support one year ago (Title 18, United States Code, Section 3771), and 
the Attorney General Guidelines on Victim and Witness Assistance, as 
revised in May, 2005, recognize the rights of crime victims and the 
importance of reasonable protections for victims from defendants, or 
those persons acting in concert with or at the behest of suspected 
offenders. Senator Inhofe's proposed legislation seeks to build upon 
this foundation. The criminal conduct of animal rights extremists is 
directed against individuals and companies in order to intentionally 
place these victims in reasonable fear of death or serious bodily 
injury. These victims suffer - often mentally, physically, and 
monetarily - when extremists threaten them, damage their property and 
affect their livelihood. This is not First Amendment protected speech, 
but rather criminal conduct that is within the traditional realm of 
statutes prohibiting threats, violence or injury to innocent victims.
                     respecting the first amendment
    In seeking to meet the challenge of these changing forms of 
criminal conduct by animal rights extremists, the Department is acutely 
aware of the importance of protecting the First Admendent rights of 
those who protest any cause they believe right, including the testing 
and other use of animals. Let me be clear: The Department does not seek 
to prosecute those who enter the arena of debate seeking to persuade 
their government or private businesses and individuals of the merit of 
their viewpoints, and this proposal would not--indeed, could not--
criminalize such protected activity. We seek to prosecute criminal 
conduct, including conduct that places a person in reasonable fear of 
death or serious bodily injury.
    The First Amendment is not a license for the use or threatened use 
of violence, or for the commission of other crimes. Even if these 
crimes are politically motivated - even if they are committed as a form 
of protest - Congress is empowered to prohibit the conduct it deems 
offensive without running afoul of the First Amendment. Those who cross 
the line from free speech to criminal conduct should be prosecuted and, 
if convicted, they should be punished appropriately. As it has done in 
other contexts, Congress must give prosecutors the tools to do so 
fairly and effectively.
                               conclusion
    Prior Congressional action has provided law enforcement and 
prosecutors with a solid framework within which to pursue the goal of 
prevention and disruption of violent extremism within our borders. We 
in the Justice Department have more work to do to eliminate this 
dangerous threat, and we urge you in Congress to continue to build upon 
and enhance the legal tools needed to accomplish our mutual goals.
    Mr. Chairman, thank you for your leadership on this issue and again 
for inviting us here and providing us the opportunity to discuss how 
the statutes are being used consistent with our Constitutional values--
to fight violent extremism within our criminal justice system. We would 
also like to thank this Committee for its continued leadership and 
support. Together, we will continue our efforts to secure justice and 
defeat those who would harm this country.
                               __________
  Statement of Mark L. Bibi, General Counsel, Life Sciences Research, 
                Inc. and Huntingdon Life Sciences, Inc.
    Good afternoon, Chairman Inhofe, Ranking Member Jeffords and 
members of the Committee. My name is Mark Bibi. I am General Counsel of 
Life Sciences Research and its operating subsidiary, Huntingdon Life 
Sciences. Thank you for this opportunity to appear before you today to 
discuss the dangers posed by SHAC , identified by the FBI as one of the 
nation's leading domestic terrorist threats. It is a serious matter and 
deserves a serious response.
    LSR is a publicly traded company headquartered near Princeton, New 
Jersey. An important part of our work is to conduct government-required 
animal testing on drugs and chemicals to identify risks to humans, 
animals and the environment. Because of these efforts to make sure 
products are safe, HLS and those who do business with us have been 
relentlessly terrorized by SHAC.
    As I awoke on a chilly November morning and looked out my window, 
the fears that had been building ever since I was first targeted for 
terror by SHAC a few months earlier were realized. My car's front 
windshield had been smashed with a large boulder. The car was covered 
with animal rights graffiti. Warning messages were spray painted all 
over my house ``Pup Killer''; ``Close HLS''; ``Quit Now''. I 
immediately knew that I had been the victim of a SHAC attack. The 
impact of this violence--and the implicit threat of future violence--is 
a terrifying life-changing event.
    A few months earlier SHAC identified me as a target in their 
newsletter and on their web site. They posted my name, home address and 
phone number, with the exhortation ``Go get em.'' Almost immediately, 
the harassment and intimidation had begun nasty phone calls in the 
middle of the night. Threatening letters and e-mails. Protesters at my 
home screaming through bullhorns that I'm a ``murderer''. And now the 
sanctity and safety of my home had been violated.
    Other SHAC targets have suffered beatings, acid attacks, car and 
letter bombings.
    SHAC uses these terror tactics not only against HLS and its 
employees, but also against third parties to force them to sever their 
business relationships with Huntingdon. Time and again, in dozens of 
cases, both customers' and HLS' providers from accounting firms, to 
banks, to lawn gardeners and even our security firm have been forced by 
fear to capitulate to SHAC's demand that they cease working with us, 
deciding it's safer to them and their employees to give in rather than 
to suffer the personal harassment and intimidation.
    SHAC is now attacking the integrity and independence of the U.S. 
stock market system. LSR's stock trades on the OTCBB market. SHAC 
targets and harasses any market maker that dares to trade in LSR stock, 
and more than forty market makers have caved in to SHAC's intimidation. 
Only one, Legacy Trading, currently consistently makes a market in LSR 
stock.
    SHAC has a current campaign against LSR's institutional investors. 
Taking advantage of public SEC filings to identify those institutional 
investors, SHAC has intimidated most of them into selling their LSR 
stock, causing significant dislocation in the market.
    But perhaps the most shameful apparent capitulation to date and 
that which poses the greatest risk to the U.S. economy is that of the 
New York Stock Exchange. In the summer of this year LSR entered into 
listing discussions with the NYSE. We met all of the financial 
requirements to list our stock on the Exchange. We told them about the 
SHAC campaign. The NYSE dismissed the potential risks, pointing out 
that since 9/11, they had been a target of the most dangerous 
terrorists in the world, assuring us they would not be scared off by 
SHAC. We spent a number of weeks completing all the necessary paperwork 
and interviews, keeping in regular contact with NYSE staff throughout, 
and on August 22 the NYSE told us that we had been authorized for 
listing. We issued a press release announcing that approval and 
reporting that we expected to begin trading on the NYSE on September 7; 
that press release was approved in advance by the NYSE, and the 
President of the NYSE, Catherine Kinney, even included a quote 
welcoming us.
    On the morning of September 7 our senior management team went to 
the NYSE's Wall Street headquarters for the original listing 
celebration. But only minutes before we were to go down to the trading 
floor to watch the first trade in LSR stock, the President of the NYSE 
told us that they would not be listing LSR stock that day, and that our 
listing was postponed. One of my LSR colleagues and I spent the next 
hour or so meeting with senior NYSE officials. We spoke only about the 
animal rights campaign against the Company. It was patently clear to me 
that the only reason the NYSE postponed our listing was because of 
concerns about the SHAC campaign.
    All Americans took pride when the New York Stock Exchange reopened 
for business only four business days after the 9/11 terrorist attacks. 
Yet, apparently purely on the basis of a perceived threat from SHAC, 
the NYSE postponed plans to list LSR. A handful of animal extremists 
had succeeded where Osama bin Laden had failed.
    We have received no information from the NYSE since September 7. 
They have never raised with us any question of our eligibility or 
suitability to list. They have not asked us for any further 
information. We just seem to have been indefinitely postponed, with no 
indications as to when if ever the NYSE will tell us anything.
    The risks posed by SHAC should not be underestimated. SHAC is the 
tip of the iceberg they are the test case for a whole new brand of 
activism through personal intimidation. Other activist campaigns are no 
doubt waiting in the wings to see how SHAC is dealt with. Imagine the 
impact if SHAC tactics were used by those opposed to various other 
industries from defense, to mining, to oil, to timber, to who knows 
what else.
    SHAC's greatest impact has come in targeting third parties doing 
business with or providing services to HLS. I urge the Congress to 
adopt more effective laws that can be used to control this third party 
targeting.
    We cannot allow the domestic terrorism practiced, fostered and 
encouraged by SHAC to flourish in our own back yard.
    Thank you for your time. I would be happy to answer any questions 
you may have.
                               __________
           Statement of Skip Boruchin, Legacy Trading Company
    Good afternoon, Chairman Inhofe and Ranking Member Jeffords. Thank 
you for this opportunity to testify before this Committee today.
    Daily, we all are faced with choices. My choice today is to present 
to you factual information that I hope will assist you. The alternative 
for me would be to leave it for someone else. My past personal 
experience indicates my choice to present information to you will 
unfortunately lead to retaliation against me and my family.
    For the last few years, I have been living a somewhat captive 
existence, held hostage by members of Stop Huntingdon Animal Cruelty 
(``SHAC''), an animal rights activist/terrorist group. As you have 
heard, SHAC is an underground group that uses fear and terror to force 
their viewpoint upon others. I am a NASDAQ Market Maker, lawfully 
working in the State of Oklahoma making a market in the common stock of 
many companies. I have been targeted by SHAC because of my job. I am a 
market maker, that is I am continually prepared to buy or sell shares 
of these companies thereby providing a liquid ready market for those 
who desire to buy or sell shares. Huntingdon Life Sciences also known 
as Life Sciences Research, Inc., (Ticker Symbol--LSRI) is a contract 
research organization that performs testing on animals and is one of 
the companies I make a market in.
    Beginning roughly about (3\1/2\) three and one half years ago, my 
employer, Legacy Trading, became the TARGET, the proverbial Bull's Eye 
for SHAC. This Bull's eye on my back and on my life is solely due to 
the fact I have been and remain the only market maker in Life Sciences 
Research Inc. (LSRI). SHAC launched an all out terrorist attack on too 
many other Market Makers. Merril Lynch, Charles Schwab, Goldman Sachs 
to name a few. They were terrorized by ``SHAC's direct action 
campaigns'' specifically to influence and control the market in Life 
Sciences Research, LSRI. ``Drop LSRI or else!!!'' I am the only hold 
out of dozens of market makers who all capitulated to SHAC's demands 
and dropped; that is ceased trading LSRI stock. Viewing me as the sole 
provider of a market for LSRI, SHAC launched a campaign of sheer terror 
on me and my family, destroying our privacy, causing dramatic changes 
in our daily lives now and I'm sorry to say forever.
    SHAC's attempts to force me to stop trading the LSRI stock included 
local, national and international harassment, intimidation and terror. 
Personal information of my family, names' address's social security 
numbers home phone numbers as well as those of 19 of my neighbors, 
placed on the SHAC site. ``Run him out of town, tell him to drop the 
stock, or we will publish credit card, medical and other personal 
information about you.'' Daily thousands of obscene and threatening 
phone calls, to home and office at all hours, day or night; outright 
slander calling me a ``child pornographer'' in the media and all over 
the internet. When these threats and actions did not work, SHAC moved 
to far more dangerous and insidious tactics. Describing me as the 
``dreaded Legacy.'' SHAC brought their crimes of terror to my home, 
office and family. One day I awoke to find that SHAC had been in my 
yard. They spray-painted large messages like ``Puppy Killer'' ``Drop 
HLS'' all over the entire house. They wrote ``Skip is a murderer.'' 
``Nine Million Dead'' on my garage door. In addition to defacing my 
home, they cut all lines of communication. The next day, the SHAC 
website bragged that this was the beginning; more ``direct action'' 
will come if you don't drop LSRI!!''
    On four occasions Legacy's office has been terrorized. The 
criminals have shattered the front office windows, incendiary devices 
thrown in, red paint over everything in the office including computers, 
furniture, the floors and walls. Office equipment was sabotaged and 
spray-painted messages were left for me to know that I suffered this 
felony for exercising my right to make a living. ``DROP HLS quit making 
a market!!!''
    If tactics like this were not enough, SHAC also targeted my 
relatives and even my 90-year-old mother. In December of 2004, my 
mother came under attack. SHAC posted MY MOTHER'S name, her address at 
her assisted living residence and her phone number on the internet with 
specific instructions to have her put pressure on me as I spoke and 
visited with her frequently. I quote the SHAC website when I tell you 
that SHAC members were instructed to ``send her sex toys, have an 
undertaker arrive to pick up her dead body,' and call her collect in 
the middle of the night, pretend to be a friend of Skip's; ask for his 
cell number in order to place it on the Internet.''
    The SHAC torment of my family did not stop with my Mother. My 
family has been targeted and terrorized in neighboring states with SHAC 
action tactics. I have chosen only to tell you of just a few of the 
harrowing traumatic events I've gone through and go through at the 
hands of SHAC.
    It is difficult to describe the emotions that accompany actions 
such as I described. I feel violated, vulnerable, angry, and gravely 
frightened for my family. This is precisely SHAC's goal to leverage 
your love of your family, your value of safety, your pursuit of life 
removing my freedoms to advance their beliefs.
    Because I go to work each day as a Market Maker. It is apparent for 
most people facing this dilemma the decision is simple drop LSRI/ drop 
Huntingdon Life Sciences.
    Well I did not, and I do not intend to. I fundamentally believe in 
the rights that we all receive as Americans. The right to liberty and 
privacy. The right to participate in government and even the right to 
disagree with government. The right to free speech. These are all 
sacred opportunities that we must not take for granted nor use against 
others. The healthy exercise of free speech should not hold others 
captive or force them to do anything.
    SHAC inexcusably promotes the lives of animals over the lives of 
the humans they target. I do not confuse SHAC's tactics with a noble 
cause nor should anyone else. Huntingdon is a company that performs a 
role in the world of developing technology. But more importantly, they 
perform a lawful function, as do I. Respectfully I ask what would you 
do if your mother, brother, sister, niece, nephew just went to work and 
were fanatically terrorized. I urge this committee to simply evaluate 
the consequences of such unchecked activism. Please do not allow people 
to force their causes, ideas or opinions upon others using fear, 
intimidation, threats of crimes, and criminal acts. I thank you for the 
opportunity to be heard, and I am happy to answer any questions.
                               __________
 Statement of Richard P. Bernard, Executive Vice President and General 
                    Counsel, New York Stock Exchange
    Mr. Chairman, and Ranking Member Jeffords and Members of the 
Committee, I am Richard P. Bernard, Executive Vice President and 
General Counsel of the New York Stock Exchange (NYSE or Exchange). On 
behalf of the New York Stock Exchange and our President Catherine 
Kinney, thank you for inviting me to testify today before the 
Committee. The NYSE greatly appreciates your leadership in establishing 
the nation's policies on matters affecting the environment and public 
works. The issues you address today surrounding the activities of 
environmental activist groups are both timely and important, to 
business and consumers alike. I hope that the information we can 
provide related to this topic will be of use to you and to the 
Committee.
               1. listing on the new york stock exchange
    The New York Stock Exchange is the world's largest cash equities 
market. We serve 90 million investors, the institutional community and 
over 2,700 of the world's leading corporations. The companies listed on 
the NYSE have a total global market capitalization of $21 trillion. 
During the first nine months of 2005, our average daily trading volume 
was 1.61 billion shares, worth over $55 billion a day.
    By way of background, I would like to describe the process by which 
a company becomes listed on the Exchange, including the information 
considered by the Exchange and the bases upon which the Exchange makes 
a decision that a company is qualified to list on the Exchange.
    Companies seeking to list on the Exchange are subject to review 
from several perspectives. There are, of course, a number of specific 
financial and corporate governance criteria that must be met in order 
for a company to qualify to list. These are specified in the Exchange's 
Listed Company Manual, in which we have codified the Exchange's rules 
that relate to listed companies. Beyond these specified criteria, 
however, the Exchange has broad discretion regarding the listing of a 
company. The Listed Company Manual states that ``the Exchange may deny 
listing or apply additional or more stringent criteria based on any 
event, condition or circumstance that makes the listing of the company 
inadvisable or unwarranted in the opinion of the Exchange. Such 
determination can be made even if the company meets the standards [in 
the Manual].'' (See NYSE Listed Company Manual Section 101.00.)
    The process of determining whether a company is qualified to list 
is one that is conducted in confidence. Section 101.00 of the Listed 
Company Manual states that: ``Prospective applicants for listing are 
invited to take advantage of the Exchange's free confidential review 
process to learn whether or not the company is eligible for listing and 
what additional conditions, if any, might first have to be satisfied.'' 
Section 104.01 of the Listed Company Manual, for domestic companies, 
and Section 104.02, for non-U.S. companies, then give an outline of the 
information needed for the purpose of conducting a confidential 
eligibility review.
    The process is confidential in order to protect the privacy of the 
company. Especially in view of the fact that the Exchange can exercise 
discretion to decline to list a company that appears to satisfy the 
objective criteria, the Exchange has historically been concerned that 
companies might be reluctant to investigate listing if a determination 
of non-eligibility was likely to become public. The negative 
implication of such a determination could have an impact on investors' 
assessment of the company, even when such a reaction would be 
unwarranted.
    And such a reaction might very well be unwarranted. The Exchange 
may determine, for example, that a company is too close to the line 
from a financial point of view to warrant listing at this time, 
although the Exchange may counsel the company that it would welcome a 
further inquiry from the company after a period of time. Or it may be 
difficult to determine with certainty whether the company has the 
number of public shareholders that the Exchange requires. Neither of 
these circumstances should concern investors, but a negative 
implication may nonetheless attach to a disinclination to list by the 
Exchange, if that were to become public.
    In another circumstance there may be a historical issue with the 
company, fully disclosed, but which causes the Exchange to decline to 
list the company. If the Exchange had to be concerned about the public 
impact of such a determination, it could chill the ability or 
willingness of the Exchange's management to make what is often a close 
and difficult ``call''.
                       2. life sciences research
    A predecessor of the company, Huntingdon Life Sciences Group plc, 
was listed on the Exchange for approximately twelve years, beginning on 
February 16, 1989. That company was removed from listing on the 
Exchange in December 2000 for failure to remain in compliance with the 
Exchange's financial continued listing requirements. At the time the 
company indicated that its financial reversals were attributable to 
``economic terrorism'' by animal rights activists. Regardless of the 
cause, given the financial situation in which the company found itself, 
the Exchange's rules dictated that the company should be delisted.
    Life Sciences Research was incorporated on July 19, 2001 and was 
the vehicle that was used to acquire the business of Huntingdon Life 
Sciences Research and continue its business through a U.S.-based 
company. After several years of trading on the over the counter 
bulletin board, management of the company approached the Exchange 
regarding listing in mid-July of this year.
    In mid-August of this year, following a typical eligibility review, 
the Exchange staff informed Life Sciences Research that the company was 
acceptable for listing. In a press release dated August 22, 2005, the 
company announced that it would list. Following that announcement, 
reactions from persons associated with member organizations and others 
focused our attention on information that we should have considered in 
determining the advisability of listing Life Sciences Research's common 
stock on the Exchange. To provide an adequate opportunity for us to 
evaluate that information, we informed Life Sciences Research on 
September 7, 2005 that its listing must be postponed. It is unfortunate 
that our attention was not focused sufficiently far in advance to 
enable us to reconsider the listing prior to the day the company was 
scheduled to list and out of the public eye. We sincerely regret the 
circumstances, and clearly would have preferred to have been able to 
make the postponement decision earlier than we did.
    The reaction to the announcement of the listing of Life Sciences 
Research, and to its postponement, has clearly focused public attention 
on the very serious concerns that have confronted Life Sciences 
Research for a number of years now, and which you and your Committee 
are working to address. Unfortunately, such publicity is quite at odds 
with our policy of affording applicants a confidential listing 
evaluation. That policy is the reason why we have limited our public 
response to an acknowledgement that the listing of Life Sciences 
Research has been postponed. We will continue to try to conduct our 
evaluation in confidence, difficult as that may be in the current 
circumstances.
    Thank you again for inviting us to testify.
                               __________
 Statement of Jerry Vlasak, M.D., Press Officer, North American Animal 
                        Liberation Press Office
                        i. introductory remarks
    Good afternoon, gentleman, my name is Dr. Jerry Vlasak. I am a 
practicing trauma surgeon, but more importantly for today's purpose, I 
am a Press Officer with the North American Animal Liberation Press 
Office. I am also a former vivisector.
    The stated purpose of the Animal Liberation Press Office is: to 
communicate the actions, strategies, philosophy and history of the 
underground animal liberation movement to the media and the public, and 
that's what I hope to do here today.
    The actions of underground activists who care enough about animals 
to speak out in no uncertain terms, and at times to risk their own 
lives and freedom, have a message that is most urgent and one that 
deserves to be heard and understood. Often underground animal 
liberation speech and actions either go unreported in the media or are 
uncritically vilified as ``violent'' or ``terrorist'', with no 
attention paid to the needless and senseless suffering that industries 
and individuals gratuitously inflict on animals. The Press Office seeks 
to clarify the motivation and nature of underground actions taken in 
defense of animals.
                                ii. hls
    Huntingdon Life Sciences (HLS) is the largest contract testing lab 
in Europe, and operates facilities in the UK and New Jersey. They kill 
500 animals a day. HLS will test anything for anybody. They carry out 
experiments which involve poisoning animals with household products, 
pesticides, drugs, herbicides, food colorings and additives, sweeteners 
and genetically modified organisms, oven cleaner and make up.
    HLS has been infiltrated and exposed 5 times in recent years by 
journalists, animal rights campaigners and members of the public; each 
time evidence of animal abuse and staff incompetence has been 
uncovered.
    A 1999 inspection of their Occold (UK) facility by the Good 
Laboratory Practice Monitoring Authority revealed 41 deficiencies, 
including errors in standard operating procedures, training issues, 
record keeping, quality assurance, equipment, labeling and facilities.
    520 violations of the UK Good Laboratory Practices Act were 
documented in an expose by the Daily Press (UK) in 2000. They are the 
only UK laboratory to ever have their licence revoked by the 
government.
    In East Millstone, NJ in 1997, an investigator from the People for 
the Ethical Treatment of Animals brought information to light that 
forced Huntingdon to plead guilty to animal cruelty violations and pay 
a $50,000 fine.
                               iii. shac
    The campaign Stop Huntingdon Animal Cruelty (SHAC) was set up at 
the end of 1999. In what has become an international campaign in more 
than 18 countries, a campaign that knows no limit to the creativity and 
length to which many demonstrators will go, SHAC has brought HLS to the 
brink of financial ruin.
    It is important to realize that SHAC is not one group, or 
hierarchical entity, but an ideologically aligned group consisting on 
thousands of people who gather in various groups to protest the 
atrocities perpetrated by HLS. While some like SHAC USA are 
incorporated, above ground non-profit organizations, who engage in 
legal demonstrations, legal boycotts and legal leafleting/education of 
the public, other groups are just individuals loosely knit. It is 
ridiculous to think that SHAC USA and SHAC UK is one group with a top-
down organization that controls all activities worldwide.
                          iv. nyse de-listing
    On September 7, 2005 HLS was due to begin trading on the NYSE under 
the symbol LSR. Moments before trading was to begin, and with HLS 
executives on the stock exchange floor to celebrate, the listing was 
cancelled without comment. There was no direct or indirect reference or 
mention of animal rights action.
    Did NYSE president Catherine Kinney halt the listing because she 
had just realized the financial temerity of HLS, or did she decide that 
a company as debased and cruel as HLS should not be associated with her 
exchange?
    The New York Stock Exchange's reluctance to admit the lab is 
understandable, as the company hides their financial details from 
public scrutiny.
    Currently HLS stock still trades on the OTCBB under the symbol 
LSRI. It was de-listed from the London Stock Exchange in 2002; the 
company reincorporated in Maryland and underwent a reverse 5:1 stock 
split. It's split-adjusted price today is a bit under $2 per share.
    Chairman of the Board and CEO Andrew Baker owns 27 percent of the 
stock, and in June fronted the company another $43 million in a 
leaseback offer giving him personal ownership of the company's land, 
buildings and equipment, which he leases back to them.
    Even after that massive infusion of cash, HLS still reports a 
whopping $75.9 million debt. A $50 million bond is payable in mid 2006.
    No commercial bank or insurance company is willing to do business 
with HLS, and at least 25 market makers have thus far refused to deal 
in their stock.
    HLS has not paid a dividend in many years, 2 of its directors are 
3rd world-based and have no experience in the field, and its annual 
shareholders meetings are held secretly in Panama. Hundreds of 
customers and suppliers have cancelled their contracts with HLS, 
choosing not to do business with a company dealing in the torture and 
killing of defenseless animals. Is this the kind of business that 
belongs on any stock exchange?
    In the last 2 weeks, HLS share price has gone into a downfall, as 
company after company sheds their stock from their portfolios. More 
than a million shares have been divested, as companies are informed 
about the vile business carried out by HLS. One company, Awad, stated 
that had they known about the cruelty at HLS, they probably would have 
never invested in them.

Oct. 20, 2005--Washington Mutual sells off 188,430 of their shares in 
    HLS!
Oct. 19, 2005--Royce & Assoc. sell off 120,000 shares!
Oct. 19, 2005--Thomson, Horstmann & Bryant, Inc. sell off 123,500 
    shares!
Oct. 18, 2005--Cortina sells off their 165,000 LSRI shares!
Oct. 13, 2005--AWAD sells off their 250,000 shares in LSRI!
Oct. 12, 2005--Greenville Capital Management sells off their 251,000 
    shares in LSRI!
                v. about the animal liberation movement
    By their accusations against SHAC and the ALF, some are trying to 
disguise where the real violence exists, and not the violence of 
extensional self-defense, but the real violence, of Huntingdon 
laboratories. Other activists watch all this, and become embittered and 
frustrated until they begin utilizing more radical.
                                iv. ccf
    When it met in May of this year to discuss ``animal enterprise 
terrorism'', this committee heard from David Martosko, director of 
research for a lobbyist group called Center for Consumer Freedom(CCF).
    The Center for Consumer Freedom, formerly known as the Guest Choice 
Network, was set up by one Richard Berman with a $600,000 ``donation'' 
from tobacco company Philip Morris. Berman arranges for large sums of 
corporate money to find its way into non-profit societies of which he 
is the executive director. He then hires his own company as a 
consultant to these nonprofit groups. Of the millions of dollars 
``donated'' by Philip Morris between the years 1995 and 1998, 49 
percent to 79 percent went directly to Berman or Berman & Co.
    On November 16, 2004, Citizens for Responsibility and Ethics in 
Washington (CREW) filed a complaint with the Internal Revenue Service 
alleging that CCF has violated its tax exempt status. The complaint 
alleges that CCF engaged in prohibited electioneering, made substantial 
payments to the founder of the organization, Richard Berman, and to 
Berman's wholly owned for profit entity Berman & Co., and engaged in 
activities with no charitable purpose. CREW executive director Melanie 
Sloan told Forbes magazine, ``It doesn't seem to me that someone should 
get a tax deduction while they're writing public relations memos about 
how people should be able to smoke in restaurants.''
                             vii. summation
    Each of the witnesses that have testified before me have their own 
financial interests at stake in the continued oppression, torture and 
murder of non-human animals by HLS.
    HLS is only one representative of the Global Vivisection Complex, 
an outdated, inefficient and wasteful entity whose time has come and 
gone. What are the major medical breakthroughs in the areas of cancer 
research, HIV/AIDS treatments, Parkinson's or other debilitating 
diseases has LSR's work been at the forefront of?
    According to recent opinion polls, only 13 percent of the public 
have confidence or trust in the Pharmaceutical Industry, ranking 
amongst the likes of big tobacco, the oil industry, and insurance 
companies (Harris Poll published in July of 2005). In August of 2005, 
Opinion Research Corporation International of Princeton, New Jersey 
found that 67 percent of the United States would rather donate to 
medical research that does not involve animal experimentation.
    In the 21st century, there is absolutely no need to torture and 
kill non-human animals to advance human medicine. The majority of 
physicians in the UK, according to a recent poll, are against animal 
experimentation and feel it is not necessary for medical research. Here 
in the United States, there are thousands of physicians like myself who 
realize there is no need to kill animals in order to help humans, the 
vast majority of whom get sick and die because of preventable lifestyle 
variables such as diet, smoking, drugs and environmental toxins. In a 
country where 45 million people do without reliable access to ANY 
medical care, there is no reason to waste hundreds of millions of 
dollars testing drugs and procedures on non-human animals. In a world 
where 20,000 children are dying from lack of access to clean water each 
week world wide, there is no reason to waste hundreds of millions of 
dollars testing drugs and procedures on non-human animals.
    Huntingdon is the poster child for the abhorrent, unnecessary and 
wasteful industry that not only murders millions of innocent, suffering 
animals, but dooms countless humans to their own unnecessary suffering 
as scarce health-care dollars are wasted on useless animal research and 
testing.
    I thank the Committee for listening to my comments, and invite your 
questions.
                                 ______
                                 
                     Huntingdon Life Sciences (HLS)
    <bullet>  Largest contract testing lab in Europe
    <bullet>  Operates facilities in the UK and New Jersey.
    <bullet>  Kill 500 animals a day
    <bullet>  HLS will test anything for anybody.
    <bullet>  Carry out experiments which involve poisoning animals 
with household products, pesticides, drugs, herbicides, food colorings 
and additives, sweeteners and genetically modified organisms.
    <bullet>  HLS has been infiltrated and exposed 5 times in recent 
years by journalists, animal rights campaigners and members of the 
public
    <bullet>  Each time horrific evidence of animal abuse and staff 
incompetence has been uncovered:
    workers punching beagle puppies in the face
    simulating sex with animals in their care
    dissecting primates while they are still alive
    falsifying experiments to get their clients' product on the market.
    <bullet>  1999 inspection of their Occold (UK) facility by the Good 
Laboratory Practice Monitoring Authority revealed 41 deficiencies, 
including errors in standard operating procedures, training issues, 
record keeping, quality assurance, equipment, labeling and facilities.
    <bullet>  520 violations of the UK Good Laboratory Practices Act 
were documented in an expose by the Daily Press (UK) in 2000.
    <bullet>  Only UK laboratory to ever have their licence revoked by 
the government.
    <bullet>  In East Millstone, NJ in 1997, an investigator from the 
People for the Ethical Treatment of Animals brought information to 
light that forced Huntingdon to plead guilty to animal cruelty 
violations and pay a $50,000 fine.
    <bullet>  Some examples of the testing done at HLS include the 
following:
    An estimated 12,800 animals died in the research of the sugar 
substitute Splenda. HLS used pregnant rabbits, beagle dogs, and 
primates to test the substance, administering up to 1200 times the 
estimated daily intake. Thirty two beagles were used and after weeks of 
having the substance pumped into them, were killed by exsanguination--
having their throats slit. The primates suffered brain defects, mood 
swings, grip reflexing, severe weight loss, and then death. The rabbits 
experienced convulsions, intestinal disorders, and not surprisingly 
trauma-induced death.
    A 2003 report documented the lab carrying out an expenment on a 
refrigeration component, long since banned in production, for the 
Japanese Refrigeration and Air Conditioning Association. The repeated 
study forced 7 month old beagles to inhale the pollutant, which caused 
severe head trembling, head tremors, whole body shaking, 
unconsciousness, and eventually death.
    <bullet>  Animal experimentation at Huntingdon Life Sciences is not 
life-saving, not necessary, and is inherently cruel.
                                 ______
                                 
                      Center for Consumer Freedom
    Front group for the restaurant, alcohol and tobacco industries.
    Media campaigns which oppose the efforts of scientists, doctors, 
health advocates, and environmentalists
    Created by Berman & Co., a public affairs firm owned by lobbyist 
Rick Berman
    Berman has argued against a Mothers Against Drunk Driving (MADD) 
initiative to lower the blood alcohol content (BAC) limit for drivers.
    Claimed that U.S. Centers for Disease Control and Prevention (CDC) 
warnings about salmonella-related food poisoning are just ``whipping up 
fear over food.''
    Anyone who criticizes tobacco, alcohol, fatty foods or soda pop is 
likely to come under attack from CCF.
    In 1995, Berman and Norm Brinker, his former boss at Steak and Ale 
Restaurants, donated the $25,000 that disgraced then-House Speaker Newt 
Gingrich, who was hauled before the House Ethics Committee for 
influence-peddling over the money. Berman and Brinker were lobbying 
against raising the minimum wage.
    In a 1999 interview Berman boasted that he attacks activists more 
aggressively than other lobbyists. ``We always have a knife in our 
teeth,'' he said. Since activists ``drive consumer behavior on meat, 
alcohol, fat, sugar, tobacco and caffeine,'' his strategy is ``to shoot 
the messenger. . . . We've got to attack their credibility as 
spokespersons.''
    On November 16, 2004, Citizens for Responsibility and Ethics in 
Washington (CREW) filed a complaint with the Internal Revenue Service 
alleging that CCF has violated its tax exempt status. The complaint 
alleges that CCF engaged in prohibited electioneering, made substantial 
payments to the founder of the organization, Richard Berman, and to 
Berman's wholly owned for profit entity Berman & Co., and engaged in 
activities with no charitable purpose. CREW executive director Melanie 
Sloan told Forbes, ``It doesn't seem to me that someone should get a 
tax deduction while they're writing public relations memos about how 
people should be able to smoke in restaurants.''
    In April 2005, CCF launched a $600,000 ad campaign in such major 
newspapers as the New York Times, Los Angeles Times, Washington Post 
and USA Today, calling ``obesity'' a ``hype'' and stated, ``Americans 
have been force-fed a steady diet of obesity myths by the `food 
police,' trial lawyers, and even our own government.''
                                 ______
                                 
                      Center for Consumer Freedom

                           [From SourceWatch]

    The Center for Consumer Freedom (CCF) (formerly called the ``Guest 
Choice Network'') is a front group for the restaurant, alcohol and 
tobacco industries. It runs media campaigns which oppose the efforts of 
scientists, doctors, health advocates, environmentalists and groups 
like Mothers Against Drunk Driving, calling them ``the Nanny Culture--
the growing fraternity of food cops, health care enforcers, anti-meat 
activists, and meddling bureaucrats who `know what's best for you.' ''
                                history
    CCF is one of the more active of several front groups created by 
Berman & Co., a public affairs firm owned by lobbyist Rick Berman. 
Based in Washington, DC, Berman & Co. represents the tobacco industry 
as well as hotels, beer distributors, taverns, and restaurant chains.
    The group actively opposes smoking bans and lowering the legal 
blood-alcohol level, while targeting studies on the dangers of red meat 
consumption, overfishing and pesticides. Each year they give out the 
``nanny awards'' to groups who, according to them, try to tell 
consumers how to live their lives.
    Anyone who criticizes tobacco, alcohol, fatty foods or soda pop is 
likely to come under attack from CCF. Its enemies list has included 
such diverse groups and individuals as the Alliance of American 
Insurers; the American Academy of Orthopedic Surgeons; the American 
Medical Association; the Arthritis Foundation; the Consumer Federation 
of America; New York Mayor Rudy Giuliani; the Harvard School of Public 
Health; the Marin Institute for the Prevention of Alcohol and Other 
Drug Problems; the National Association of High School Principals; the 
National Safety Council; the National Transportation Safety Board; the 
Office of Highway Safety for the state of Georgia; Ralph Nader's group, 
Public Citizen; the U.S. Centers for Disease Control and Prevention 
(CDC); and the U.S. Department of Transportation.
                          starting off smoking
    Berman launched the Guest Choice Network in 1995. Its initial 
funding came entirely from the Philip Morris tobacco company. ``I'd lke 
to propose to Philip Morris the establishment of the Guest Choice 
Network,'' Berman stated in a December 11, 1995 letter to Barbara Trach 
(http://www.prwatch.org/documents/berman/berman600k.pdf), PM's senior 
program manager for public affairs. ``The concept is to unite the 
restaurant and hospitality industries in a campaign to defend their 
consumers and marketing programs against attacks from anti-smoking, 
anti-drinking, anti-meat, etc. activists. . . . I would like to solicit 
Philip Morris for an initial contribution of $600,000.'' The purpose of 
the Guest Choice Network, as Berman explained in a separate planning 
document (http://www.prwatch.org/documents/berman/gcplan.pdf), would be 
to enlist operators of ``restaurants, hotels, casinos, bowling alleys, 
taverns, stadiums, and university hospitality educators'' to ``support 
mentality of `smokers rights' by encouraging responsibility to protect 
`guest choice.' According to a year end 1995 budget (http://
www.prwatch.org/documents/berman/budget.pdf), Guest Choice planned to 
spend $1.5 million during its first 13 months of operation, including 
$390,000 for ``membership marketing/materials development,'' $430,000 
to establish a communication center and newsletter (which Berman 
promised would have a ``60 percent to 70 percent smoking focus'' 
(http://www.prwatch.org/documents/berman/gcplan.pdf)), $110,000 to 
create a ``multi-industry advisory council,'' and $345,000 for 
``grassroots network development/operation.''
    The tobacco company complied with Berman's initial funding request 
for $600,000 (http://www.prwatch.org/documents/berman/pm600k.pdf) and 
pitched in another $300,000 early the following year. ``As of this 
writing, PM USA is still the only contributor, though Berman continues 
to promise others any day now,'' wrote Philip Morris attorney Marty 
Barrington in an internal company memorandum dated March 28, 1996 
(http://www.prwatch.org/documents/berman/pm300k.pdf). Aside from Philip 
Morris, there are no other publicly known funders of Guest Choice until 
its public launch 2 years later, in April 1998, sporting an advisory 
board comprised mostly of representatives from the restaurant, meat and 
alcoholic beverage industries.
                      quotable and notable events
    In a 1999 interview with the Chain Leader, a trade publication for 
restaurant chains, Berman boasted that he attacks activists more 
aggressively than other lobbyists. ``We always have a knife in our 
teeth,'' he said. Since activists ``drive consumer behavior on meat, 
alcohol, fat, sugar, tobacco and caffeine,'' his strategy is ``to shoot 
the messenger. . . . We've got to attack their credibility as 
spokespersons.''
    In November 2001, the Guest Choice Network launched a separate web 
site, ActivistCash.com, which purports to expose the ``hidden funding'' 
of various activist groups that support animal rights, food safety and 
smoking prevention.
    In January 2002 the Guest Choice Network renamed itself the Center 
for Consumer Freedom.
    On November 16, 2004, Citizens for Responsibility and Ethics in 
Washington (CREW) filed a complaint with the Internal Revenue Service 
alleging that CCF has violated its tax exempt status. The complaint 
alleges that CCF engaged in prohibited electioneering, made substantial 
payments to the founder of the organization, Richard Berman, and to 
Berman's wholly owned for profit entity Berman & Co., and engaged in 
activities with no charitable purpose. CREW executive director Melanie 
Sloan told Forbes, ``It doesn't seem to me that someone should get a 
tax deduction while they're writing public relations memos about how 
people should be able to smoke in restaurants.'' \1\ (http://
www.forbes.com/business/2005/09/23/obesity-lobbying-ccf-
cz_sl_0923ccfhtml). The full text of CREW's complaint is available 
online.\2\ (http://www.citizensforethics.org/activities/20041116/)
                           campaign timeline
    In early 2002, CCF ran national radio ads targeting studies on the 
link between food consumption and health. One ad referred to ``red-
faced picketers wielding pointed wooden sticks with signs that read 
`eat tofu or die' on the way to your classic cheeseburger and fries.''
    In a May 11, 2002 San Francisco Chronicle article, CCF spokesman 
John Doyle responded to questions about nationwide radio ads put out by 
the group. He said the ads were meant to attract people to their 
website and ``draw attention to our enemies: just about every consumer 
and environmental group, chef, legislator or doctor who raises 
objections to things like pesticide use, genetic engineering of crops 
or antibiotic use in beef and poultry.'' \3\ (http://sfgate.com/cgi-
bin/article.cgi?f=/chronicle/a12002/05/11/MN119037.DTL)
    In April 2005, following a U.S. Centers for Disease Control and 
Prevention study that ``obesity accounts for 25,814 deaths a year in 
the United States''--in contrast to earlier CDC studies suggesting 
365,000 annual obesity-related deaths\4\ (http://edition.cnn.com/2005/
HEALTH/diet.fitness/04/20/obesity.deaths.ap/)--CCF launched a $600,000 
ad campaign. The ad, run in such major newspapers as the New York 
Times, Los Angeles Times, Washington Post and USA Today, called 
``obesity'' a ``hype'' and stated, ``Americans have been force-fed a 
steady diet of obesity myths by the `food police,' trial lawyers, and 
even our own government.'' \5\ (http://www.consumerfreedom.com/
advertisements_detail.cfm/ad/30) CCF's Mike Burita said the ad campaign 
was part of their ``putting pressure on the leadership of the CDC, who 
has still not endorsed this new figure'' for obesity-related deaths. 
Claiming that CCF wanted ``some perspective,'' Burita added, ``Obesity 
is certainly a genuine problem. But when genuine problems become 
political issues they tend to become exaggerated, as this has.'' \6\ 
(http://msnbc.msn.com/id/7633701/)
    A September 2005 Forbes article describes ads CCF ran in its 
``anti-anti-obesity'' campaign:\7\ (http://www.forbes.com/business/
2005/09/23/obesity-lobbying-ccf-cz_sl_0923ccf.html)
    In one ad, Seinfeld ``Soup Nazi'' character actor Larry Thomas 
plays a chef who weighs customers, then barks ``salad!'' or ``no food 
for you'' depending on how far they push the scale. In another, heavy-
handed ``food police'' rip an ice cream cone away from a whimpering 
kid, whack a beer from a man about to enjoy a sip and snuff out a hot 
dog on the ground.
    The article also mentions PetaKillsAnimals.com, another CCF 
campaign against People for the Ethical Treatment of Animals, and 
continues:
    But Berman has already moved onto his next topic: scares about 
mercury levels in fish. He'll soon be adding FishScam.com to a growing 
collection of Web sites that includes AnimalScam, CSPIscam and 
ActivistCash, which exposes the financing behind do-gooder groups and 
lefty celebrities.\8\ (http://www. forbes.com/business/2005/09/23/
obesity-lobbying-ccf-cz_sl_0923ccf.html)
                               personnel
    CCF is registered as a tax-exempt nonprofit organization. The IRS 
Form 990 filed for the the 6-month period from July to December 1999 by 
CCF (then calling itself the Guest Choice Network), listed the 
following officers:

<bullet>  Richard Berman, executive director.
<bullet>  Ray Kraftson, director
<bullet>  Dixie L. Berman, secretary/treasurer
<bullet>  Dan Popeo, director (Popeo is also chairman of the Washington 
    Legal Foundation, a corporate-funded right-wing think tank which 
    paid him $301,593 in salary and benefits in 2000.)
<bullet>  Allison Whitesides, director (Whitesides has also worked as a 
    public relations representative for Coca-Cola North America and 
    Outback Steakhouse. In November 2001, she went to work as a 
    legislative representative for the National Restaurant 
    Association.)

    The CCF also has an advisory panel. In 1998 it included the 
following individuals:

<bullet>  Dave Albright, National Steak & Poultry
<bullet>  Jane Inns, Perkins Family Restaurants, L.P.
<bullet>  Steve Bartlett, Meridian Products Corporation
<bullet>  Robert Basham, Outback Steakhouse, Inc.
<bullet>  John F. Berglund, Minnesota Licensed Beverage Association
<bullet>  Lou Chatey, Sebastiani Vineyards
<bullet>  H.A. ``Andy'' Divine, University of Denver
<bullet>  Timothy J. Doke, Brinker International, Inc.
<bullet>  Richard Fisher, Tetley USA, Inc.
<bullet>  William L. Hyde, Jr., Ruth's Chris Steakhouse
<bullet>  James Spector, Philip Morris, USA
<bullet>  Michael Middleton, Cargill Processed Meat Products
<bullet>  Daniel J. Popeo, Washington Legal Foundation
<bullet>  Richard G. Scalise, Armour Swift-Eckrich
<bullet>  Daniel Timm, the Bruss Company
<bullet>  Carl Vogt, Fulbright & Jaworski
<bullet>  Richard Walsh, Darden Restaurants, Inc.
<bullet>  Terry Wheatley, Sutter Home Winery

    In addition to these officers, several Berman & Co. employees and 
associates have appeared in news stories as CCF representatives:

<bullet>  Mike Burita has worked for a variety of conservative causes, 
    including Republican election campaigns, Phyllis Schlafly, 
    Frontiers of Freedom, and Brent Bozell's Media Research Center.
<bullet>  John Doyle, communications director for Berman & Co., also 
    doubles as a spokesman for the CCF, the Employment Policies 
    Institute and the American Beverage Institute.
<bullet>  On February 24, 2000, the Washington Post reported that Tom 
    Lauria, ``who helped peddle the tobacco industry's message at the 
    Tobacco Institute before the lobby group was dismantled last year 
    as part of an agreement with the states,'' had been hired as 
    director of communications for CCF (then named the Guest Choice 
    Network). Lauria left Berman's employ sometime in 2001.
<bullet>  David Martosko has been described in news stories as CCF's 
    director of research.
                        affiliated organizations
    In addition to the Center for Consumer Freedom, Berman & Co. 
sponsors several other organizations and web sites, including the 
Employment Policies Institute (which fights to keep the minimum wage 
low and opposes mandatory health insurance for workers), and the 
American Beverage Institute, which opposes restrictions on drinking and 
driving.
                                funding
    CCF is registered as tax-exempt nonprofit organization and is 
required to disclose some financial information to the Internal Revenue 
Service which is publicly available by inspecting their IRS Form 990s. 
Like Berman's other front groups, it does not disclose the identity of 
its funders, but some information about it has become publicly 
available thanks to the 1998 attorney generals' settlement with the 
tobacco industry, which required tobacco companies to release millions 
of pages of previously secret company documents.
    CCF claims to represent ``more than 30,000 U.S. restaurants and 
tavern operators.'' However, the IRS Form 990 which it filed for the 
the 6-month period from July to December 1999 (under the name of 
``Guest Choice Network'') shows that almost all of its financial 
support came from a handful of anonymous sources. Its total income for 
that period was $111,642, of which $105,000 came from six unnamed 
donors. It received no income from membership dues. Some of its funding 
apparently came from one of Berman's other organizations, the American 
Beverage Institute, which ``contributes monthly amounts to the Guest 
Choice Network to assist with media expenses.'' The Guest Choice 
Network did not report paying salaries to any of its employees, who 
were presumably paid by Berman & Co.
    CCF's Form 990 for the year 2000 showed total income of $514,321, 
almost all of which ($492,500) came from seven unnamed donors. Once 
again, it received no income from membership dues and did not report 
paying salaries to any employees. However, it did list $256,077 in 
compensation paid to Berman and Co., Inc., for ``management services.''
    Like other Berman & Co. front groups, CCF is headquartered at the 
following address: Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="285a4a4d5a45494668464d5f055a4d4944415c51064b4745">[email&#160;protected]</a>; website: 
www.consumerfreedom.com
                               __________
 Statement of Bruce R. Bistrian, M.D., Ph.D., President, Federation of 
          American Societies for Experimental Biology (FASEB)
    The Federation of American Societies for Experimental Biology 
(FASEB) appreciates the opportunity to submit testimony on behalf of 
our 23 scientific society members, representing more than 65,000 
biomedical research scientists. Furthermore, FASEB gratefully 
acknowledges the leadership role of Chairman James Inhofe in 
highlighting the detrimental consequences of animal rights (AR) 
extremism. We feel strongly that the decision by the New York Stock 
Exchange to halt the scheduled listing of the parent company of 
Huntington Life Sciences, in apparent response to pressure from AR 
extremists, sets a dangerous precedent that jeopardizes our progress in 
medical research and the quest for new therapies to treat and cure 
disease.
    The use of animal models in biomedical research is absolutely 
essential to our ability to develop treatments and cures for those 
suffering from debilitating diseases. Breakthroughs in treatments for 
diabetes, heart disease, cancer, HIV/AIDS and Parkinson's disease would 
not have been possible without the use of animals. Moreover, animal 
research directly benefits animals themselves: the majority of 
veterinary advances are a direct result of research involving animal 
models.
    Members of the FASEB Societies believe that the use of animals in 
research and education is a privilege. This imposes a major 
responsibility to provide for their proper care, ethical and humane 
treatment. Good animal care and good science go hand-in-hand and is 
taken most seriously by the scientific community. In addition, FASEB 
feels that it is a responsibility of researchers to communicate to the 
public about the role and importance of animals in research, a task 
made difficult due to the dangers posed by members of AR extremist 
groups.
    The recent escalation in violence and intimidation campaigns by AR 
extremists directed towards researchers and their institutions is of 
great New York Stock Exchange (NYSE), and its apparent capitulation to 
the AR extremist group, Stop Huntington Animal Cruelty (SHAC), 
biomedical researchers are often the focus of campaigns launched by 
groups like SHAC or the Animal Liberation Front (ALF). We would like to 
take this opportunity to put a human face on researchers whose lives 
have come under siege. These are scientists who have dedicated decades 
of their life in an effort to alleviate human suffering and improve 
human health. Moreover, these incidences are often widely reported when 
they take place and are counted as victories by the AR extremist 
movement.
    In the November 22, 2002 edition of Science magazine,\1\ then FASEB 
President Steven Teitelbaum, MD, published an Op-Ed in response to the 
ongoing situation of Michael Podell, DVM. Dr. Michael Podell was an 
Associate Professor in the Department of Veterinary Clinical Sciences 
and Center for Retrovirus Research, College of Veterinary Medicine at 
the Ohio State University (OSU). He studied the effect of 
methamphetamine abuse on the progression of immunodeficiency virus, 
known in humans as HIV, the causative agent of AIDS, as well as the 
neurological effects of HIV, a poorly understood aspect of the disease. 
Podell's investigation involved the use of feline models, because his 
previous research had discovered that feline immunodeficiency virus 
(FIV) closely mirrors the neurodegenerative effects of HIV infection in 
humans, making cats an excellent surrogate for HIV neuropathology. This 
research was uncovering tantalizing new evidence about the effects of 
methamphetamine use on viral replication. Podell's findings, published 
in the Journal of NeuroVirology, plainly showed a manifold increase in 
neural cells' ability to replicate FIV after methamphetamine treatment. 
The OSU study also shed light on the mechanism by which FIV associates 
with astrocytes, mutating into a strain of virus that does not depend 
on immune system interaction for replication. This important piece in 
the puzzle of how the viral load of FIV/HIV in the brain leads to 
dementia is vital to efforts to lessen this debilitating brain damage. 
However, before these findings were published, Dr. Podell abandoned his 
research, walking away from a $1.68 million grant from the National 
Institutes of Health (NIH), the sort of funding only one in five 
researchers might successfully apply for.
---------------------------------------------------------------------------
    \1\ Teitelbaum, S. (2002, Nov. 22) Science. 298:1515.
---------------------------------------------------------------------------
    Why did Michael Podell, a promising and successful scientist who 
was contributing invaluable knowledge to the fight against AIDS, leave 
his career as a research scientist? From the awarding of the grant in 
October, 2000, Dr. Podell, his family, and Ohio State University were 
subjected to an intense and often violent campaign of harassment. 
According to interviews with Dr. Podell,\2\ he received thousands of 
harassing emails and a dozen death threats. The university itself was 
subjected to repeated acts of vandalism. Ultimately, it was concern for 
the safety of his family, who were also being threatened, that played a 
large part in convincing Michael Podell to leave. In one threatening 
letter they received, a newspaper picture of a United Kingdom scientist 
whose car had been bombed by AR extremists was scrawled with the 
message ``You're next.''\3\
---------------------------------------------------------------------------
    \2\ Davis, S. (2002, August 1) DVM Newsmagazine.
    \3\ Stolberg, SG (2002, July 23) New York Times. P. Al
---------------------------------------------------------------------------
    Sadly, this is not an uncommon story: throughout the US and UK, 
law-abiding biomedical researchers are being targeted. Although these 
groups have sought cover under the fact that no U.S. researcher has 
been physically harmed or directly targeted for physical violence, this 
is not true in the UK. Human targets of groups like SHAC and ALF in 
Europe have been beaten, branded, attacked with caustic substances, and 
firebombed.\4\ The roots of the U.S. movement of AR extremism are in 
the UK. FASEB feels it is only a matter of time before these domestic 
campaigns escalate to the violent intensity of their UK counterparts. 
We fear that the NYSE's action will embolden these groups to increase 
their violent efforts to halt the use of animals in research.
---------------------------------------------------------------------------
    \4\ Bhattacharya, S. (2004, April 22) The New Scientist. Retrieved 
2005, Oct. 25 from: http://www.newscientist.com/article.ns?id=dn4913
---------------------------------------------------------------------------
    Research institutions, funded in large part by taxpayer dollars, 
are also victims of AR extremism. In the last hearing on this topic 
held by this committee, you examined the damage done during the 
November, 2004 attack at the University of Iowa, which caused $450,000 
worth of damage to laboratories and equipment. Again, this is not an 
uncommon story: Louisiana State University (LSU) in Baton Rouge was 
spared the wrath of Hurricane Katrina, but has been attacked multiple 
times by ALF,\5\ most recently in April, 2005.\6\ On ALF's website, 
where the attack against LSU is triumphantly detailed, there is an 
ominous message to researchers, ``Stop now, or be stopped.'' \7\ Money 
that could be going towards life-saving medical research is now being 
spent on increased security and cleaning up the damage caused by AR 
extremists.
---------------------------------------------------------------------------
    \5\ McElfresh, A. (2004, Jan. 30) The Reveille (LSU). Retrieved 
2005, Oct. 25 from: http://www.lsureveille.com/vnews/display.v/ART/
2004/01/30/4019fdcbb1286
    \6\ Smallwood, S. (2005, Aug. 5) The Chronicle of Higher Education. 
51(48). P. A8.
    \7\ Animal Liberation Front. Retrieved 2005, Oct. 25 from: http://
www.animalliberationfront.com/ALFront/Actions-USA/LSU_Rat_Lib_05.htm
---------------------------------------------------------------------------
    But the monetary damages done to laboratories and research 
institutions, (documented by the Federal Bureau of Investigation, the 
Southern Poverty Law Center, the National Association of State 
Universities and Land-Grant Colleges, and the Foundation for Biomedical 
Research), do not fully convey the impact of direct actions by ALF and 
SHAC. The loss of computer files, lab animals, research notebooks or 
microscope slides may not account for a great monetary loss, but could 
represent years of work in the life of a scientist or graduate student. 
Imagine working long hours on a small stipend, following your heart's 
passion through the sometimes frustrating process of bench research for 
five years, trying to achieve a doctoral degree, only to have all of 
that work eliminated in one night by a group whose public website 
describes in great detail exactly how to attack and harm research 
laboratories. The human toll of having one's research lab targeted by 
AR extremists is described eloquently in a Washington Post editorial 
(July 17, 2005) written by Dr. Mark Blumberg, a researcher at the 
University of Iowa, which we have attached.
    Animal rights extremists have become a serious impediment to the 
progress of biomedical research, as well as to the peace of mind of 
scientists themselves. FASEB understands that the committee is 
addressing the broader topic of eco-terrorism, of which AR extremism is 
only one part. However, we urge the committee to carefully examine the 
toll of AR extremism on the scientific community and our medical 
research enterprise, the results of which are an insidious stifling 
effect on the discovery of new cures for diseases. Biomedical 
researchers are dedicated to improving the health, well-being and 
productivity of all people. They should be allowed to do so in safety 
and security. Thank you for the opportunity to submit testimony and for 
shedding light on this critical issue. FASEB stands ready to assist in 
any way possible.
                                 ______
                                 

           [From the Washington Post, Sunday, July 17, 2005]

               The Animal Zealotry That Destroyed Our Lab

                         [By Mark S. Blumberg]

    55Iowa City, Iowa.--``Are you lying down?'' my wife asked me over 
the phone. It was Sunday, Nov. 14 of last year, and I was just waking 
up in my hotel room in Madison, Wis., where I'd gone to visit my sister 
and her son for the weekend. My wife's question--especially her urgent 
tone--triggered a cascade of sickening thoughts. Soon, I was racing 
home to Iowa.
    Although the pieces only came together over the next several days, 
the bare facts were these: Early that morning, at least five 
individuals had illegally entered the research facility at the 
University of Iowa where my colleagues and I, all professors of 
psychology and neuroscience, work. The intruders broke into offices and 
laboratories, dumped acid and other chemicals and destroyed equipment. 
They also ``liberated'' the animals--primarily rats and mice--used in 
our studies of such basic behavioral and biological processes as 
learning, memory, temperature regulation and sleep. One of my graduate 
students arrived at work early that morning and discovered, in bold red 
spray paint, the slogans that are the hallmark of the Animal Liberation 
Front (ALF): ``Science not sadism'' and ``Free the animals.''
    With this break-in, my department had become the latest poster 
child of the animal rights movement. After years of escalating attacks 
on research facilities in the United Kingdom, animal rights and 
environmental extremists have turned to North America, which is fast 
becoming a breeding ground for their type of violence. But because the 
number of individuals affected is still relatively small, most 
Americans remain unaware of the seriousness of the threats. As my 
experience shows, even among decision-makers, few are taking it 
seriously enough.
    The care of laboratory animals isn't, as some seem to believe, an 
unregulated field. As scientists engaged in government-sponsored 
research, we must conform to an exhaustive array of local, state and 
federal rules. Nor are we unthinking about these animals' use. As 
scientists, we debate it among ourselves and with others, as all 
thoughtful individuals do when dealing with issues of life and death. 
What happened in Iowa, though, was not a debate; it was an assault.
    For us, the break-in set off a chain of events that one might 
expect after an attack of such magnitude. Our unassuming buildings at 
the edge of campus were cordoned off as local, state and then federal 
law enforcement personnel descended. With the closing of these 
buildings, the daily lives of hundreds of faculty, staff and students 
were disrupted. Experts in the handling of hazardous materials spent 
weeks identifying and removing the corrosive chemicals that had been 
dumped inside.
    The cost of the cleanup, replacement of valuable equipment and 
purchasing of new animals totaled in the hundreds of thousands of 
dollars. Contrary to initial reports, relatively little data were lost 
(in part because the attackers seemed more concerned with smashing 
computers than erasing hard drives) although even small losses can have 
far-reaching consequences for research.
    Instead, it was the human cost that was most devastating. Imagine 
the horror of walking into your office at work, as one of my young 
colleagues did, to find computers, books and personal effects (such as 
ultrasound images of your unborn child) soaked in acid. Then, imagine 
having to don a chemical protection suit for several days and sift 
through multiple 55-gallon drums filled with acid-soaked papers, 
photocopying those that are still readable as they crumble in your 
hand.
    Unfortunately, the attack on the building is where our story 
begins, not ends. For what followed was a series of well-orchestrated 
harassments. First came the e-mailing of a communique to the media, 
detailing the crime and the rationale for targeting our facility and 
the individuals who work there. Each of us was singled out for 
derision; I was colorfully described as having a ``famously deranged 
mind'' because of my research on the similarities between the high-
pitched squeals of infant rats and the life-sustaining grunts of human 
preemies in respiratory distress.
    Some of ALF's statements produced the desired chilling effect: 
``Let this message be clear to all who victimize the innocent,'' the e-
mail read. ``We're watching. And by axe, drill, or crowbar--we're 
coming though your door. Stop or be stopped.'' Later in that document, 
the brazen and indiscriminate nature of their threat was revealed when, 
after noting ``the established link between violence towards animals 
and that towards humans,'' they listed ``as a public safety measure'' 
our names, our spouse's names, home addresses and phone numbers, as 
well as information about our students.
    Next came the video. Several days after the communique, local 
journalists informed a group of us that a surreptitious delivery had 
brought a 50-minute videotape of the crime. Would we be interested in 
seeing it? Within an hour, two colleagues and I found ourselves huddled 
together in front of a small television set in a local newsroom, 
watching in dismay as these individuals--clearly youthful despite being 
hidden behind hoods, masks and gloves--paraded through our facility, 
smashing delicate instruments with oversize hammers and transferring 
rats and mice to plastic cages. It was particularly difficult for me to 
watch as my infant rats, along with their mothers, were thrown together 
with several other adults, knowing (as these animal ``liberators'' 
apparently did not) that cannibalism of the young was the likely 
outcome. There was no video of that.
    In the weeks thereafter, our attackers and their allies kept up 
their campaign. There were press conferences by local agitators, 
freedom of information requests, midnight phone calls, a well-
publicized visit by a nationally known pro-ALF speaker whose message 
was that more attacks were needed. And then came the magazines. They 
started as a trickle, but soon my mailbox was deluged with dozens 
catering to every taste: Canoe & Kayak, Guns & Ammo, Fit Pregnancy, 
Muscle Mustangs & Fast Fords. It's simple but ingenious: tear out those 
little subscription cards, apply a label, and send it in. No hassle, no 
mess. In total, nearly 450 subscriptions were directed at us, 160 to me 
alone. Funny? Perhaps, unless you consider how you would respond to 
such an onslaught, including the invoices and, ultimately, the credit 
agencies that followed.
    When we learned that a Senate panel would be addressing the issue 
of animal rights extremism in May, we thought that some relief was 
imminent. Groups like the Southern Poverty Law Center and Anti-
Defamation League have been keeping an eye on the growing violence. 
Critics have pointed out financial donations, overlapping personnel and 
supportive public statements that raise questions about a possible 
relationship between above-ground groups such as People for the Ethical 
Treatment of Animals (PETA) and fringe groups like ALF. We hoped that 
such evidence had accumulated to the point that a concerted and 
bipartisan effort might finally affect their formidable fundraising 
apparatus. We were sadly disappointed.
    We were encouraged that the president of our university had been 
called as a witness and that our experiences of the past several months 
would receive some high-level attention. Unfortunately, the hearing 
quickly devolved into a partisan disagreement. Incredibly, the senators 
seemed more interested in protecting their favored activist groups from 
scrutiny than in determining which groups actually posed significant 
threats to the lives and livelihoods of law-abiding citizens. Most 
galling were the comments of Sen. Frank Lautenberg, a Democrat from New 
Jersey, who seemed miffed that his time was being wasted on such fluff. 
Incredulous of the testimony provided by the FBI and the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF), in which violent 
animal rights and environmental extremists were identified as among our 
most serious domestic terrorism threats, Lautenberg asked facetiously 
who the next target would be: ``Right to Life? Sierra Club?'' Then, he 
inexplicably proclaimed himself ``a tree hugger.''
    I later made several attempts to contact Lautenberg about his 
comments, via fax, phone and e-mail, but never received a response.
    I was a victim of a violent crime once before. While on break from 
college in the early 1980s, I was sitting in my parents' home in Chevy 
Chase reading a book when, suddenly, I looked up and found myself 
staring into the barrels of two snub-nosed revolvers. The intruders 
tied me up and robbed the house, then left silently. As traumatic as 
that event was, its effect on me was fleeting. I was angry, yes, but I 
did not feel terrorized. These home invaders clearly did not hate me 
for who I was or what I did. They did not issue a communique declaring 
that others should attack me. They did not release a video to force me 
to relive the indignity of the event. And they did not encourage their 
minions to engage in further harassments. Terrorists, no matter what 
their cause, seek political change through violence and intimidation. 
Is it essential that we label animal rights extremists as terrorists? 
Perhaps not, unless such a label helps us--and especially politicians--
to better appreciate the seriousness of the threat and to marshal the 
necessary law enforcement resources.
    Because the threat is serious. Today, scientists, clinicians and 
educators find themselves engaged in a seemingly endless string of 
pitched battles: over the teaching of intelligent design in our public 
school classrooms, over the availability of stem cells to treat 
degenerative diseases, over the rights of severely brain-damaged 
individuals to die. If we focus on the conventional politics that drive 
these conflicts--right vs. left--we miss the bigger picture.
    In fact, what ties all of them together is a common distrust of and 
disdain for science, for empirically based medicine, for the value of 
evidence and critical analysis, and for progress in a free and open 
society. Moreover, and perhaps most alarming, is the adoption by 
certain groups of increasingly violent action to achieve their 
political aims. Indeed, the mounting acceptance of intimidation and 
violence within the anti-abortion movement eerily parallels the 
escalating tactics of animal rights extremists. Thus, the ideology and 
goals of these groups may align at opposite ends of the political 
spectrum, but their tactics have converged. As we know, a number of 
abortion doctors have already been killed, and some animal rights 
extremists seem to approve of physical violence as a tactic. It's only 
a matter of time before someone takes the next step. Whom will 
Lautenberg hug then?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                                     Oct. 25, 2005.
Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.

Hon. Russell J. Feingold,
U.S. Senate,
Washington, DC.
    Dear Senators Inhofe and Feingold: Thank you very much for holding 
the hearing tomorrow on the terrorist tactics of the animal rights 
extremist group SHAC. I attended the May 18 EPW hearing along with my 
colleagues from the National Association for Biomedical Research and am 
extremely grateful for the attention this matter is getting. My job is 
very difficult because, as public information and outreach coordinator 
for the Wisconsin National Primate Research Center, I would like to be 
more open with the public; but there is increasing animal rights 
terrorism out there and we don't want to make ourselves more vulnerable 
to it.
    Our society needs to condemn these terrorists and anyone who 
encourages their acts of violence through Internet chat room rhetoric, 
recruiting people to the cause who would later break the law, and 
harassing, threatening or attacking third party supporters such as 
stockholders and their families. SHAC and other animal rights extremist 
groups and individuals have been getting away with too much for too 
long. The spokespeople for these terrorists say the perpetrators do not 
harm people; but I strongly disagree. There are many more ways to harm 
a person other than to cause physical injury, as I detailed to you, 
Senator Inhofe, in my June 6, 2005, letter after the May hearing.
    Yesterday, the police contacted me personally, and told me that my 
family and I are now a planned target of animal rights extremists. 
Thus, I am now forced to take further security precautions, for reasons 
that I have been asked to keep confidential at this time. Please help 
us pass the necessary laws in this country to bring tougher 
surveillance and penalties upon those who conspire to intimidate and 
threaten law-abiding citizens engaged in or financially supporting 
life-saving and humane biomedical and veterinary research.
    I express my utmost thanks to you and the EPW committee for holding 
these hearings and for your continued dedication and support for 
protecting the staff, animals and facilities of centers such as the 
Primate Center where I work.
    In addition, I thank you, Senators Feingold and Inhofe, for your 
dedication to maintaining our clean water and air in Wisconsin, 
Oklahoma, and the United States. My previous job, for many years, was 
in the Bureau of Water Resources Management at the Wisconsin Department 
of Natural Resources. My family is dedicated to preserving wetlands, 
storm water runoff ponds and other critical natural zones in the West 
Bend area through the Cedar Lakes Conservation Foundation. Thank you 
for your great track records on the environment.
            Sincerely,
                                                     Jordana Lenon.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 Society for Animal Protective Legislation,
                                  Washington, DC, October 25, 2005.
    To all Members of Congress: On behalf of the animal welfare 
community, we affirm our commitment to non-violent methods to improve 
the lives of animals. As Mahatma Ghandi said, ``Non-violence is the 
greatest force at the disposal of mankind. It is mightier than the 
mightiest weapon of destruction devised by the ingenuity of man.'' We 
support direct action within the confines of the law to promote the 
protection of animals, and we strive to operate within a framework of 
common ethics.
    Our belief is that good animal care is in everyone's interest. 
Respecting those with differing opinions, we inform the public about 
animal-related causes--and most importantly, we seek to relieve the 
avoidable pain and distress suffered by any species.
    While our community is diverse, we aim to work together to 
accomplish a variety of goals on behalf of the animals. By raising 
awareness, we believe we can advance animal welfare standards around 
the world. The humane treatment of animals is a key step toward 
creating a more peaceful society.
            Sincerely,
                                   American Society for the Prevention 
                                       of Cruelty to Animals.
                                   Animal Care and Welfare/SPCA.
                                   Animal Welfare Institute.
                                   Society for Animal Protective 
                                       Legislation.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
